<html>
<title> - NCLB REAUTHORIZATION: STRATEGIES THAT PROMOTE SCHOOL IMPROVEMENT</title>
<body><pre>[Senate Hearing 110-295]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-295
 
    NCLB REAUTHORIZATION: STRATEGIES THAT PROMOTE SCHOOL IMPROVEMENT

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

  EXAMINING THE NO CHILD LEFT BEHIND ACT REAUTHORIZATION, FOCUSING ON 
               STRATEGIES THAT PROMOTE SCHOOL IMPROVEMENT

                               __________

                            FEBRUARY 8, 2007

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate



                        U.S. GOVERNMENT PRINTING OFFICE

33-366                         WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

           Katherine Brunett McGuire, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                               __________

                               STATEMENTS

                       THURSDAY, FEBRUARY 8, 2007

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     3
Barber, Martha, Alabama Reading Initiative Regional Principal 
  Coach, Birmingham, AL..........................................     6
    Prepared statement...........................................     8
Brandon, Yvonne, Ed.D., Associate Superintendent for Instruction 
  and Accountability, Richmond Public Schools, Richmond, VA......     9
    Prepared statement...........................................    11
Coleman, Richard, Director, An Achievable Dream Academy, Newport 
  News, VA.......................................................    13
    Prepared statement...........................................    15
Flanagan, Michael P., State Superintendent of Instruction, State 
  of Michigan....................................................    18
    Prepared statement...........................................    20
Mahaley-Johnson, Hosanna, Executive Officer, Office of New 
  Schools, Chicago Public Schools, Chicago, IL...................    22
    Prepared statement...........................................    24
Johnson, Kimberly, Principal, Briggs Chaney Middle School, Silver 
  Spring, MD.....................................................    27
Turner, Alana Dale, Teacher, Easton High School, Easton, MD......    29
    Prepared statement...........................................    31
Reville, Paul, President, Rennie Center for Education Research 
  and Policy, Cambridge, MA......................................    33
    Prepared statement...........................................    35

                                 (iii)


    NCLB REAUTHORIZATION: STRATEGIES THAT PROMOTE SCHOOL IMPROVEMENT

                              ----------                              


                       THURSDAY, FEBRUARY 8, 2007

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SH-216, Hart Senate Office Building, Hon. Edward M. 
Kennedy, chairman of the committee, presiding.
    Present: Senators Kennedy, Reed, Obama, Brown, Enzi, 
Alexander, Burr, Murkowski, Roberts, and Allard.

                  Opening Statement of Senator Kennedy

    The Chairman. We'll come to order. I trust this microphone 
is on. Is it on? There we go. We'll come to order. I want to 
welcome all of our witnesses here this morning and at the 
outset, we've adopted Senator Enzi's roundtable concept about 
how to better inform the members of our committee on some of 
these important public policy issues and it's, I find, a very 
effective way to highlight the information that we're seeking. 
We also rely on good written testimony for more details on some 
of these ideas that are talked about during the course of our 
hearing which gives our staffs opportunities to develop these 
concepts in greater detail as we are legislating. We have a 
very impressive panel this morning and we are very grateful to 
all of them and I welcome all of our participants in the first 
of several roundtable discussions on the reauthorization of the 
No Child Left Behind Act. I'm especially grateful to Senator 
Enzi for his help and the help of his staff as well as Senator 
Dodd and Senator Alexander's staff in putting together this 
roundtable. We look forward to continuing the bipartisan 
partnership on these issues.
    Our public schools today are more indispensable than ever 
in giving all students the opportunity they need and deserve in 
life. We all agree upon the importance of the Nation's future, 
strengthening and supporting our schools. Reauthorizing the No 
Child Left Behind Act this year is a high priority for Congress 
and the American people. The law enacted 5 years ago was a 
defining moment for Federal support of public education and was 
intended to respond to the many challenges facing our schools 
in today's rapidly changing world. We know that schools have 
faced many difficulties in implementing the act, the most 
serious of which has been the lack of adequate funding. But 
we've also learned a great deal over the past 5 years about 
what's working well in the law and what needs to be changed.
    Our goal this year will be to work across party lines to 
enact a strong reauthorization that builds on the positive 
aspects of the law and answers the widespread concerns about 
implementation.
    Today our focus is on ideas and strategies needed to turn 
around struggling schools identified by the laws accountability 
provisions. The act appropriately ensures that accountability 
is guided by realistic data on every child in every State. No 
Child means no child. The act is a promise to students and 
parents alike that regardless of their background and language 
and income or disability, every student counts in school 
reform.
    The initial results of the act's accountability provision 
show that States have focused primarily on standards, 
assessments and measurements in building their framework for 
accountability but much more remains to be done after that 
essential first step, especially in schools that haven't met 
the challenge and are wrestling with improvement. The Federal 
role in assisting these schools may be our greatest challenge 
and is top priority for this reauthorization.
    Over 9,000 low-income schools have been identified by the 
act for improvement, corrective action or restructuring. Some 
of these schools are in the early stage of changing their 
curriculums or beginning tutoring. Others are in later stages 
of replacing staff or reforming their overall approach to 
teaching and learning. Thousands of schools are waiting for 
technical assistance and support to develop and implement their 
improvement plans as required by law in order to avoid the 
later stages required in restructuring. In fact, only 34 
percent of the schools needing improvement--one in three--have 
received outside help or support. Developing the ability to do 
so is a major challenge at all levels. Obviously, we must do 
better. Fortunately, we know we can.
    Today, we'll hear about some of the successful solutions 
that States, school districts and individual schools have 
adopted to make their improvement efforts successful. We'll 
hear how teachers and principals have concentrated on data on 
each child to produce results. We'll hear how outside experts 
and coaches have made a substantial difference in improving the 
quality of teaching and we'll hear how schools have partnered 
to learn from each other to achieve improvement.
    We know it can be done and today is our opportunity to 
consider how best to shape policies and allocate Federal 
resources to achieve the greatest impact in these high-priority 
schools. We look forward to your insights. We're grateful to 
you for your being part of this immensely important task. We've 
chosen, as I mentioned, a roundtable format for today's hearing 
so we can hear from more people and to facilitate an 
interactive discussion among the panelists on this important 
issue.
    I'll first turn to my friend, Senator Enzi, for opening 
remarks and then we'll open up the discussion by asking each of 
our witnesses to describe two or three of their most important 
interventions or strategies they used to turn around school 
performance and achieve results and also the greatest obstacles 
or challenges they encountered in the process.

                   Opening Statement of Senator Enzi

    Senator Enzi. Well, Mr. Chairman, I want to thank you for 
getting us busy on this most important issue that we're going 
to be covering, getting it started right away and allowing our 
staffs to work together to put together such a great panel of 
experts that can give us ideas and help us gain real knowledge 
before we write the bill. Getting started on this review is 
extremely critical and this is an outstanding panel to do that. 
I look forward to the several other panels that we'll have 
before we actually do No Child Left Behind as well as 
opportunities to get into our districts and see what the people 
there are thinking.
    There are many good things happening in our schools today 
but that's not what we focus on when we talk about schools. 
Just as our schools vary in size and student population, 
effective approaches to school improvement vary widely.
    What we have not done effectively is getting the word out, 
getting the word out about what we know are the most effective 
improvement interventions--in other words, what works and that 
is what this roundtable is about. School districts in Wyoming 
are using a variety of strategies for schools designated as in 
need of improvement under the adequate yearly progress 
structure. In Cheyenne, our largest school district in Wyoming, 
Superintendent Dan Stephan has put in place professional 
learning communities that focus on three goals. First, 
increased achievement on math and problem solving skills. 
Second, the utilization of writing skills across the 
curriculum. And third, increasing the graduation rate. 
Superintendent Stephan is changing the culture of the school 
district from one of a teaching district to a learning district 
and firmly believes that failure is not an option.
    Superintendent Kevin Mitchell, of Big Horn County School 
District Number 1, believes that an increased focus on reading 
instruction and effective leadership are two key indicators of 
increasing student academic achievement as part of school 
improvement. His experiences show that an effective leader who 
can not only pinpoint the problem but also execute a strategy 
to fix the problem, is the key to school success.
    Both of these district leaders also said that they need 
help. They need to know what strategies other districts, with 
similar characteristics, are using to improve student 
achievement outcomes. They need technical assistance to 
implement school improvement plans and to analyze data to 
determine where interventions are most needed. Finally, they 
need assistance to provide training to staff on interventions 
that have been successfully improving student achievement 
levels.
    Now, each of you have coped with similar needs. I'm very 
pleased that we are able to hold this roundtable to learn from 
each of you the strategies that have been effective and the 
obstacles you've faced in implementing these strategies. No 
Child Left Behind has given us a strong framework and good data 
to learn where schools are faltering. The next step is to learn 
how we can help schools that are faltering improve and increase 
student academic achievement.
    The topic of school improvement isn't a new one. In 1979, 
Ron Edmonds, an expert on high-performing, high-poverty 
schools, identified what he called the most tangible and 
indispensable characteristics of effective schools. He found 
six key characteristics: strong administrative leadership, high 
expectations for all students, an orderly and quiet atmosphere, 
clear focus on academics, readiness to divert energy and 
resources to academics, and the frequent monitoring of student 
progress. A similar study was published in 2000, which found 
very similar traits. The only big addition was the use of 
master teachers.
    We know what makes a good school. What we don't know is how 
to make a low-performing school into a high-performing school. 
Many of you here today have done just exactly that. The key is 
how do we duplicate the successes you've had in other schools 
across the country?
    The Federal Government, through No Child Left Behind, can 
assist with a number of the issues and problems each of you 
have encountered. First, we need to learn more about what's 
working. Schools are working very hard to increase the academic 
achievement levels of their students and that effort needs to 
be recognized and successes need to be disseminated.
    I believe it is important that everyone--school leaders, 
teachers and especially parents, have access to school 
improvement activities and interventions that have been proven 
to be successful in both schools and school districts. 
Superintendents, principals and teachers should be able to 
adapt these interventions to their school environment so that 
they work for their students.
    Second, I believe that Congress should support school 
improvement activities as they are authorized under No Child 
Left Behind. Schools and districts now have the data and 
information they need to determine where they need help but 
often don't have the resources needed to implement strategies 
to achieve improved student performance.
    Finally, I believe we can work within the current No Child 
Left Behind structure to improve teacher training and 
professional development and focus on strategies that increase 
student academic achievement. Teachers are a necessary and 
vital factor in the school improvement process.
    That said, there is no silver bullet when it comes to 
school improvement. Every school and school district in this 
country is unique and has different areas in need of 
improvement. We have to focus on strategies that couple 
effective interventions, such as aligning curriculum and 
professional development, with State standards.
    I look forward to working with all of you as work 
progresses on the reauthorization of No Child Left Behind.
    The Chairman. Well, thank you very much, Senator Enzi. I'll 
introduce our panelists and then we'll move ahead and hear from 
each of them.
    Dr. Martha Barber, of the Alabama Reading Initiative. We're 
delighted to have you here. Martha is a Reading Initiative 
Regional Principal Coach in Birmingham, Alabama and has led the 
effort to pair 36 low-performing elementary schools with higher 
performers. Dr. Barber will focus on the importance of strong 
leadership and strategies to teach principals and staff how to 
work as a team to develop solutions and improve data driven 
instruction. As a principal, Dr. Barber found that many 
students were coming to elementary school without any prior 
school experience. She worked with the community to create 
their own early education program in order for systemic school 
reform to work. We welcome you.
    Dr. Yvonne Brandon is Associate Superintendent, Richmond 
Public Schools, and has led district-wide improvement efforts 
to use data to improve instruction and support research-based 
reading interventions. Dr. Brandon will focus on the challenges 
her district faced in developing a curriculum and standards for 
all their schools to follow and the importance of constant 
monitoring and intervention to support schools before they 
begin to fail. Last year, 88 percent of the district schools 
met AYP and met the Virginia State standards. They've used 
assessment data to improve instruction, not just to label 
schools as failing. We're delighted to have you.
    Richard Coleman is the director of the Achievable Dream 
Academy, in Newport News, Virginia. He is a principal at a 
predominately poor minority school that is extended day and 
year. Here, a focus on data-driven instruction turned around a 
chronically failing public school. Dr. Coleman has received 
financial support from local businesses and higher education 
communities. Strong community and parental involvement has been 
critical in the success of the school and the school provides 
health and other comprehensive services to students to improve 
their social development and academic achievement.
    Alana Dale Turner is a teacher at Easton High School in 
Easton, Maryland. Nominated by the NEA to participate, she will 
focus on the importance of high quality, professional 
development using data to improve instruction, tutoring and 
extra help for students and the need for more funding. We'll 
look forward to hearing the role of the teachers in this whole 
process.
    Michael Flanagan, we welcome you. Your colleagues from all 
of our States have extended a word of welcome to all of you. I 
wanted to give a special welcome as well from Debbie Stabenow. 
Michael Flanagan, Michigan State Superintendent of Instruction, 
led statewide efforts to intervene in struggling schools. The 
State developed new rigorous high school course requirements, 
rigorous elementary and middle school standards, and research-
based school improvements. The State has supported high need 
schools for the establishment of principal academies, follow-up 
coaching and support, school monitoring teams, targeting funds 
to schools in subgroups that need it the most.
    Kimberly Johnson, good morning. She is the principal of 
Briggs Chaney Middle School in Silver Spring, Maryland, who led 
successful school improvement efforts at a high-poverty middle 
school, particularly successful with disabled students. Ninety-
two percent of the classes in the schools are taught by highly 
qualified teachers and strong professional development has 
helped staff improve instruction for every student.
    Hosanna Mahaley-Johnson, good morning. She is Executive 
Officer, Office of the New Schools, Chicago Public Schools. She 
has implemented successful programs to close low-performing 
schools and reopen as a school providing intensive clinical 
experience for new teachers entering the field. Teachers 
participate in a year-long residency program where they learn 
skills to be strong classroom teachers. The program supports 
them for the first 3 months with mentoring. These teachers go 
on to provide a highly qualified, stable source of teachers for 
schools. Very interesting.
    Paul Reville is President of the Rennie Center for 
Education Research. Paul, good morning.
    Mr. Reville. Good morning, Senator.
    The Chairman. My constituent here has had a long history in 
education. It's good to see you. He is President of the Rennie 
Center for Education Research and Policy, author of the new 
blueprint for the State role in improving low-performing 
schools. Paul Reville will focus on the importance of building 
State's capacity to provide needed support to schools and 
districts in need of improvement. States also face challenges 
in developing standards and assessments that are competitive in 
line with the demands for the 21st century and he's done a good 
deal of work with that.
    So we have a very interesting and broad group of presenters 
this morning from very much different backgrounds and 
experience but with a common theme and that is that you've been 
creative, innovative and successful and that's what we're 
interested in as we draft this legislation and as we set out 
different kinds of criteria, we want to understand underneath, 
how we can set the standard to have the kind of successes that 
I think all of you had coming at this from your own particular 
life's experience but with important lessons for us to hear 
about.
    So, I'm going to ask each of you, if you'll take the two or 
three most important interventions or strategies and we'll go 
through the whole line and then we'll open this up to 
conversations and get some interaction between the particular 
witnesses.
    Dr. Barber, we'll start with you, if we could.

STATEMENT OF MARTHA BARBER, ALABAMA READING INITIATIVE REGIONAL 
                PRINCIPAL COACH, BIRMINGHAM, AL

    Ms. Barber. Thank you. First of all, thanks for this 
opportunity to share strategies that have proven to be 
successful in schools that have been struggling. I've been a 
principal, I've been an assistant principal and I've supervised 
schools and now I work with the Alabama Reading Initiative for 
the State Department of Education and I work with principals, 
trying to replicate those practices that have proven to be 
successful in schools that are beating the odds. And as I think 
back over those practices that have been successful in most 
schools, I began work in effective leadership. Leadership is 
the key. If you have an effective leader, that leadership would 
have a vision for success. That leader serves as a point guard 
to make sure all the other stakeholders are in place and that 
they have the appropriate resources and the appropriate support 
that is needed to ensure that success is accomplished.
    Too often, we have leaders in place who don't have that 
support. We give them mandates, we give them directives and a 
lot of times, our principals come to school when they're 
selected; they have no preparation. Our higher education 
programs are sometimes limited in providing them with the 
training and some principals come straight from the classroom 
but it is different being a principal than being a classroom 
teacher. The principal is going to guide the success, is going 
to determine the direction of that school.
    In my capacity with 36 schools, I make the comment that if 
I have a failing school, I have a principal who is in need of 
some support. The principal sets the tone, the principal 
determines the climate. The principal determines the culture of 
their school and the culture is what is in the school. A true 
leader can make almost anything happen in a school. A true 
leader can guide the people in that school to believe that they 
can do all--do anything that they set their heart to. Our 
students come to us with needs and with issues sometimes and 
are struggling with situations but the parent has sent to us 
the best that she or he can.
    If public education is to do its job, then we have to 
ensure that those students are going to obtain a quality 
education and the principal will be the key to making that 
happen, to setting beliefs in place, asking--getting teachers 
to challenge their own belief system, to challenge our value 
system and the principal has to set the tone so that the 
teachers can believe that they can teach those students. Our 
beliefs become our actions. If that belief is not in place then 
our actions are going to be in such a way that the kids are not 
going to be successful.
    The culture of that school is important. You have to set a 
culture that embraces learning for all students. It doesn't 
matter whether the student is special ed or a minority or any 
of those factors but that student is a child and we have the 
responsibility for taking that child from where he is to where 
he needs to be, making that part of the culture. That belief 
system is part of the culture.
    And professional development--I started at a school with 
marginal teachers, low-achievement schools. Within 3 years, I 
only changed two staff members but the data in that school 
almost doubled in that time because of the professional 
development that we put in place for those teachers and it was 
a high-poverty, inner-city school. But nothing changed. The 
teachers were the same, the students were the same. What 
changed was the culture. What changed was the belief system and 
what changed was the professional development that took those 
teachers who were not--who were failing. That's what changed 
and when that changed, then everything else changed. The 
students started learning. The school became a place of safe 
haven for all students. The teachers were comfortable. Their 
reward was in the fact that they started believing in 
themselves and once they believed in themselves, they started 
believing in the students and that has trickled down and once 
that occurred, then the students started learning because they 
felt comfortable in that situation.
    The Chairman. Just quickly, you had this tie-in between 
low-performing schools and higher performing schools. Could you 
just comment quickly on that, if you would? It's rather 
interesting how you tied the high-performing with the low-
performing out of that work.
    Ms. Barber. I think all schools can be high-performing 
schools. As a principle, I went to high-performing schools. I 
went to schools that did not look like my school. I went to 
schools that were a different race, different socio-economic 
standard. I wanted to see what the utopia could be because I 
felt that my students deserved that. I took those things that I 
saw that were working. I wanted to build a culture in that 
school of high expectations. My students came to me from homes 
that were not always what it should have been. So when they 
crossed the threshold--when they walked in, they should have 
felt the warmth, before anybody spoke. They should have felt 
that they were loved, that they were cared for. They should 
have walked into a building that was student-centered where 
they were the center of everything, where everything was print 
rich. Books everywhere, those things that we value and we made 
that our standard, even before No Child Left Behind, before 
Federal accountability. We made that our standard and we made 
it happen according to what we could do as a faculty and as a 
staff because all schools can be there and I wanted my staff to 
know that if one school was doing it, regardless of the factors 
that were in place, then we could do it. So I use them as--I 
use those type of schools as our standard and we partner with 
those schools and we reach for that goal.
    [The prepared statement of Ms. Barber follows:]
                 Prepared Statement of Martha S. Barber
    I would like to express gratitude and thanks to Senator Kennedy, 
Senator Enzi, and the members of the Health, Education, Labor and 
Pensions Committee for allowing me to share and discuss my school 
improvement efforts and experiences. As each of you know, sessions of 
this type can help in identifying practices that are successful in 
schools that are improving the academic achievement of poor, minority, 
and disenfranchised students.
    It has always been my philosophy that public schools serve as a 
haven for all students. Furthermore, it is my strong belief that we can 
impact student learning regardless of what they bring or don't bring to 
the table. Having been a child of poverty has also influenced my school 
improvement efforts.
    The seminal work done at Tuggle Elementary School in the Birmingham 
City School System actually preceded the inception of NCLB by just a 
few years. However, the underlying premise in NCLB is the same 
fundamental premise of the school improvement efforts implemented at 
Tuggle Elementary School: that is all children can learn, and it's our 
responsibility as educational caregivers to make learning happen. In 
order for school improvement efforts to be successful, the leader must 
have a vision. My vision was to build a culture that embraced student 
learning and teacher learning as the primary outcomes for the school. 
Engaging all stakeholders in this vision became my task. Additionally, 
I wanted to implement a schoolwide program that would allow all 
stakeholders to reach such levels of success that learning and student 
achievement would occur at unprecedented levels.
    Several strategies and behaviors served as the catalyst for our 
school improvement efforts. We had a clear sense of purpose. Our only 
purpose for being at Tuggle was to be successful with all of our 
students. We focused strictly on student learning. Moreover, we focused 
on learning at high levels for all students. The goal of student 
learning became the parameter under which we operated.
    We focused on developing a positive and collaborative culture at 
Tuggle. Culture in itself is defined as ``what is in the school.'' We 
worked toward developing a culture that was warm, inviting, and student 
centered. All students were embraced and made to feel special. In 
developing a collaborative culture, teachers and other staff members 
were given quality time for meetings. These meetings were designed to 
focus on teacher effectiveness as well as student achievement. During 
the meetings, data was analyzed, students were discussed, and 
intervention plans were developed for students not making appropriate 
and adequate growth.
    The staff at Tuggle became highly effective. We finally realized 
that if our students were going to learn at high levels, we, too, had 
to learn at high levels. We had to increase our content knowledge. 
Research is very clear, ``good teachers make good schools.'' We began 
to seek means of learning for ourselves. Participating in job-embedded 
professional development became the norm. Staff development was based 
on student needs and teacher needs. We no longer attended workshops 
that were not related to our needs. Initially, we held our workshops at 
our school using in-house staff. To enhance our professional growth, 
the staff decided to become a part of the Alabama Reading Initiative 
(ART). This research-based project is a process that uses the 
scientific research on reading to guide the teaching of reading.
    We focused on results as part of our efforts. The staff used data 
to determine the effectiveness of all of our efforts. We looked at 
quantitative as well as qualitative data. This analysis showed us 
whether students were learning as well as whether our classroom 
instruction needed adjustments.
    Having a strong principal was also instrumental to the success of 
our school improvement efforts. Principals are key to successful 
schools. Effective principals empower teachers to excel.
    Tuggle developed a school-wide theme: ``Don't be caught dead 
without a book.'' As a result of ARI, reading became our theme. Our 
efforts were designed to increase volume of reading by our students. To 
this end, we organized around the concept of using every available 
minute for reading.
    In my current position as ARI Regional Principal Coach, I coach 36 
principals in the State of Alabama. The school improvement strategies 
that have proven to be successful are the ones discussed above. As a 
principal coach, it is my goal to coach principals and central office 
staff on connecting leadership to instruction. As part of this process, 
we have identified practices and behaviors that will maximize our 
school efforts. Some of these were mentioned in the earlier part of 
this response. Successful schools have leadership teams led by the 
principal who learn these strategies and behaviors and then replicate 
them in the building. Thus, successful schools go from structures to 
processes. These processes become a natural part of the school culture.
    As a result of the school improvement efforts at Tuggle, the staff 
transformed. Teachers changed their instructional behaviors and 
developed a sense of efficacy. They adopted a ``can do'' attitude and 
started to believe that their students could learn. The teachers also 
began to believe that it was their responsibility to teach their 
students. Students also developed that ``can do'' attitude. The 
students' confidence increased. Behavior problems decreased. Test 
scores increased in all three tested grades. The school also received 
the following awards and recognitions: National Distinguished Title One 
School, ARI School (member of the sweet 16), International Reading 
Association Exemplary Reading Program Award, and Blue Ribbon School for 
Alabama.
    Several issues emerged that had to be addressed during our school 
improvement efforts. Some teachers resisted the change. If success is 
to occur, you have to stay focused and committed to your goals. We kept 
the goals front and center in every conversation. We reminded everyone 
of our purpose and tried not to lose focus.
    Our students were not participating in pre-school programs. As a 
result, students entered our school with limited or little prior 
knowledge. We had to invite the community into our doors. We had to 
work with area daycares. Using Title One funds, we operated summer 
programs for incoming kindergarten students and reading academies for 
all other students during the summer.
    Parent involvement was initially an issue. We needed parents on the 
team if growth was to be sustained. A Title One Parent Involvement Aide 
provided workshops and other trainings. Additionally, parents were 
encouraged to participate in the daily operations of the school. They 
were also trained on providing academic support to their children. We 
included parents on our school leadership team.

    The Chairman. Thanks.
    Dr. Brandon.

   STATEMENT OF YVONNE BRANDON, ASSOCIATE SUPERINTENDENT FOR 
   INSTRUCTION AND ACCOUNTABILITY, RICHMOND PUBLIC SCHOOLS, 
                          RICHMOND, VA

    Ms. Brandon. Good morning. I would like to thank Chairman 
Kennedy, Senator Enzi and the members of this committee, the 
Health, Education, Labor, and Pensions Committee, for allowing 
me the opportunity to speak to you about school improvement 
with respect to No Child Left Behind. I am very honored and 
grateful for this opportunity.
    For us in Richmond City Public Schools, right down the road 
in Richmond, Virginia, it was more of a district focus. We had 
schools that were excelling but they were pockets of 
excellence. We wanted a district of excellence. So therefore, 
it required having not only district support but State support 
as well. Our Governor, Mark Warner, had the PASS Initiative, 
which is Partnerships for Achieving Successful Schools, which 
had a similar pairing of high-performing schools with low-
performing schools. Those schools invested time and effort in 
visiting our schools and giving tips about how we could involve 
and incorporate their strategies into our schools.
    Additionally, we had to look at ourselves with a critical 
view. We had to accept the brutal facts that our district was 
extremely low performing. It was the second lowest performing 
district in the Commonwealth of Virginia. That was not a good 
place to be and none of us wanted to accept that. It was 
neither acceptable nor were we willing to allow it to continue. 
So we had to make a concerted effort between our governance 
arm, that is our school board, our administration, our 
teachers, our principals, and our central administration. We 
were going to do better than that.
    We had the Council of Chief State School Officers come in 
and do a strategic study of our district--I'm sorry but I'm 
kind of nervous--strategic study of our district and they gave 
us a lot of important topics to look at. It was not comfortable 
but we had to engage ourselves and make sure that we got over 
that uncomfortable feeling and started to make strategies to do 
what was right.
    We also invested in curriculum revision, curriculum 
alignment, professional development, not only professional 
development from the principal standpoint but we also invested 
a lot of time and effort into our classroom teachers because we 
knew that that was the most important investment that we could 
make. Our teachers learn how to use data, how to collect the 
data first and how to analyze it and apply those data points to 
improve instruction.
    We also decided that we could select all kinds of reading 
programs, all kinds of math programs but when the door closed 
on that classroom, we needed to know if there was fidelity to 
implementation. So our central office developed a strategy of 
internal monitoring called, Charting the Course and we go out 
each October and visit each school. Everybody except our 
superintendent, who is with me today, goes out to those 
schools. We sit with the principals. We talk about their trend 
data. We set targets and we monitor. We also have teacher 
leaders around the table to talk to us about what happened the 
year before and what their strategies are. And we use that 
information to develop their school improvement plans.
    We then go back each month, sometimes twice a month, 
depending on the status of those schools. And it is a means of 
providing resources, both human as well as fiscal resources to 
those schools to help.
    We also have engaged tutors and coaches. As we visit, we 
find out where the areas of need are and we send tutors and 
coaches to those schools. Our central office instructional 
staff go to those schools. So we have a lot of resources 
directed toward the areas of need.
    This is a year-to-year process for us, which is a challenge 
because as soon as that last State assessment is collected, we 
have to start all over again with a new group of students, a 
new group of teachers. We lose some of our teachers to our 
surrounding area because they become attracted to less 
strenuous circumstances than the urban district that they are 
currently working. So professional development is an ongoing 
process and we have to make sure that we are dealing with it on 
a year-to-year basis with the same intensity. We cannot let up.
    We also recognize the value of early childhood education in 
scaffolding the learning. So we focus a lot on pre-k through 
2nd grade and making sure that those skills are developed in 
those children who come to us with different levels of need. We 
have kids who come in who are reading in pre-kindergarten or at 
least they can recognize sounds. Then we have kids who come in 
who don't have a clue. So we have to make sure that we are 
providing them with the same resources.
    The data is what we use to identify those skill deficits in 
the students and we employ a variety of instructional 
strategies to support it. We look for textbooks, resource 
materials--everything we do is based on the data that we 
receive so we don't haphazardly teach. We teach by blending the 
art of teaching and the science of teaching together. Thank 
you.
    [The prepared statement of Ms. Brandon follows:]
             Prepared Statement of Yvonne W. Brandon, Ed.D.
    Good morning. I would like to thank Chairman Kennedy, Senator Enzi 
and members of the Health, Education, Labor, and Pensions Committee for 
the opportunity to testify on No Child Left Behind Reauthorization: 
Strategies that Promote School Improvement. I am Yvonne Wallace 
Brandon. I am the Associate Superintendent for Instruction and 
Accountability of Richmond City Public Schools in Richmond, Virginia 
and I am accompanied by Superintendent Dr. Deborah Jewell-Sherman.
    The goal of Richmond City Public Schools is to provide students 
with a world-class education. The vision is for Richmond Public Schools 
to be the premier learning community that is the first choice for ALL 
in Richmond and is recognized nationally for student excellence. For 
that reason, student achievement is the focus for every initiative, 
program and partnership undertaken by the Richmond City School Board 
and the district community.
    Approximately 25,000 students attend public schools in Richmond. Of 
that number, 89.19 percent are African-American. We also provide a 
variety of educational services for the 19 percent of our student 
population who have disabilities. In the past few years, we have seen a 
steady increase in our ESL student population, with Hispanic students 
representing the fastest growing segment of that population. 
Additionally, nearly 70 percent of our students qualify for free and/or 
reduced lunch. And, a significant number of our students come from 
single-parent homes and reside in low-income housing. In other words, 
Richmond Public Schools includes all of the characteristics of urban 
school districts across this Nation.
    What is not so typical is that the Commonwealth of Virginia 
implemented its Standards of Learning (SOL) initiative in 1999, a high-
stakes testing program that required every local school district to 
meet achievement benchmarks in all four core academic subject areas. To 
become fully accredited, 70 percent of a school's student population 
must pass the tests. In year one, only two of Richmond's schools earned 
full accreditation. In 2002, that number reached 10. The progress was 
neither expedient nor acceptable.
    A change in culture of the entire district was necessary. Under the 
leadership of our new superintendent, Dr. Deborah Jewell-Sherman, we 
started charting our course to excellence. We had to create a culture 
of continuous commitment to student success. The vision provided the 
foundation for excuse-free education and high expectations for all. We 
committed being on board, on purpose, and on message. We also vowed to 
show that our students would excel not in spite of who they were or 
where they lived but because of who we are.
    Our journey was multifaceted expanding from Governor Mark Warner's 
PASS (Partnership for Achieving Successful Schools) Initiative to the 
local governance arm down to each classroom. We took a critical view of 
ourselves and in the words of Jim Collins; we faced our ``brutal 
facts.'' Our district was suffering from low student self-confidence, 
sinking staff morale, school board frustration and parent and community 
dissatisfaction. We were reverberating from site-based management--
multiple reading programs, textbooks, supplemental materials and other 
resources within the district. This alone proved to be disastrous for 
students in a district that experienced an estimated 40 percent 
mobility.
    We embraced Jim Collins' work from Good To Great, applying business 
principles to our work. Realizing that our profitability was measured 
by student achievement, we embraced a managed instruction theory of 
action. We developed a district-wide curriculum that was aligned to 
State standards and assessments and a district-wide instructional 
model. We created instructional tools for the classroom teachers called 
the RPS Treasure Chest. This resource included a pacing guide, lesson 
plans for each standard, sample activities, technology integration, 
essential knowledge, vocabulary, and sample assessments.
    Another facet of our work was to blend the art of teaching with the 
science of teaching. We developed benchmark and other formative 
measures to collect data, analyze it and utilize the information to 
drive all of our decisions. The application of the data was used to 
deploy central office assistance to schools and classrooms, to develop 
remediation and intervention plans, for professional development, to 
select textbooks and supplemental materials, to develop school 
improvement plans and finally to allocate fiscal and human resources.
    The belief that consistent and thorough monitoring is necessary to 
assure fidelity to implementation was the guiding principle behind the 
development of our internal accountability system called ``Charting the 
Course.'' This process requires that central office administrators and 
instructional staff make monthly visits to schools. The initial visits 
are conducted to review trend data, set yearly targets, observe 
teachers and provide immediate feedback and recommendations to 
principals. The frequency of subsequent visits was determined by the 
schools ability to reach AYP and accreditation for multiple years.
    Last, we infused another business model, `The Balanced Scorecard,'' 
into our work to provide transparent accountability and to guide us. 
The BSC provides feedback on internal instructional and business 
processes and external outcomes (i.e., student achievement and customer 
satisfaction) in order to continuously improve results.
    Our progress has been noted in local, State and national 
publications. Richmond Public Schools is no longer the second lowest 
performing school district in Virginia. In 2003, we more than doubled 
our number of fully accredited schools, moving from 10 to 23 or 44 
percent; in 2004, 39 or 76 percent schools; in 2005, 45 or 90 percent 
schools; and in 2006, 44 or 88 percent. In meeting the Federal 
benchmark, Adequate Yearly Progress (AYP), our students have shown a 
similar pattern of progress. In 2003, 12 or 23 percent of our schools 
made AYP; in 2004, 27 or 53 percent schools; 2005 41 or 82 percent and 
in 2006, 40 or 88 percent of our schools. In fall 2006, one of our 
schools was named a Blue Ribbon School, our first.
    While the No Child Left Behind (NCLB) Act provided a springboard 
for our school district to take a bold look at our instructional 
program, it must also be noted that Richmond Public Schools did not shy 
away from the challenges that accompanied the implementation of the 
NCLB Act. We know that our greatest asset is our teachers. They make 
the difference between a successful and memorable educational 
experience and one that is forgettable. The concentration of efforts at 
the classroom level is an investment in the future of every child who 
walks into our doors. The commitment to fidelity of implementation is 
critical to the success of any program or strategy and requires the 
allocation of time, effort and support at the classroom level.
    Are we there, yet? No. We face many challenges as we progress. The 
investment in professional development is an on going process. We 
sometimes lose our investment as surrounding school districts, without 
urban challenges, become more attractive. When teachers leave us, they 
leave with experience and a tool box of strategies and resources. Our 
quest to change the culture is not complete. As we progress, we have 
the challenge of balancing flexibility and accountability. In the past 
we have focused on the upper elementary grades in our assessment and 
accountability system. By analyzing data, we know that pre-school-
second grade education is extremely important to the success of 
students as well as necessary to close achievement gaps. The balance of 
developmental instructional strategies with academic strategies is also 
a challenge. These aforementioned challenges may impact our ability to 
build and maintain the capacity for excellence in each school, but they 
do not impact our resolve. For us, failure was not, is not and never 
shall be an option for Richmond Public Schools.

    The Chairman. Thank you very much.
    Mr. Coleman.

            STATEMENT OF RICHARD COLEMAN, DIRECTOR, 
         AN ACHIEVABLE DREAM ACADEMY, NEWPORT NEWS, VA

    Mr. Coleman. Senator Enzi and other Senators here, thank 
you, first of all, for inviting me to represent An Achievable 
Dream, which is in Newport News, Virginia. I, like my 
colleagues, I think we focus on many of the same things and I'm 
proud to subscribe certainly to many of the principles that 
they subscribe to as well.
    An Achievable Dream Academy and I'm going to give you a 
prospective from a building level. I'm the Director of An 
Achievable Dream, which is a K-12 program. I happen to have 
been the principal of the school for 5 years and the assistant 
principal for 3 years and over the years, we've subscribed to 
three strategies that have been effective with us.
    First and foremost, we have high expectations and I know 
that in schools that have high-minority, low-income clientele, 
high expectations are one of those elements that have to be 
implemented if we're going to have our children succeed.
    At An Achievable Dream Academy, we have a selection 
process. We're not a magnet school nor are we a charter school. 
We're a unique partnership with the School Board, the Newport 
News School Division and the city of Newport News and in that 
partnership, every year we select children that come into our 
school. There are three factors that we use to select the 
children. We use a point system.
    First, those children that are on free or reduced lunch--
you have to be eligible for free or reduced lunch to be 
eligible to come to our school. So consequently, 96 percent of 
the kids that are at our school are on free or reduced lunch. 
You get additional points if you live in public housing versus 
private housing. You get additional points if you live with 
surrogate parents or grandparents as opposed to living in a 
two-parent family.
    So basically, we look for those kids that are socially and 
economically deprived and those are the students that are at An 
Achievable Dream Academy from grades kindergarten through 
grades 12.
    We focus, as I mentioned, on high expectations but we also 
have to focus on the data that has been mentioned and data is 
so critical; it becomes such a common phrase and terminology 
that it is critical, as has been mentioned already, that we 
teach our teachers how to take a look at data and then feedback 
the data to our teachers and to our children so that they have 
it in digestible sound bites. What I mean by that is the 
strands of information that our children do not do well in, we 
have our teachers focus on those areas. So we are working on 
the interventions on the areas that they've not mastered as 
opposed to trying to review everything that we've taught 
already. We do that in a number of ways, but the data--and 
looking at the data is the critical piece that our teachers 
have learned to use to be able to accommodate our children.
    In addition to that, we believe in a framework that we call 
social, academic and moral. In academic, we all understand 
academic is for children that come to school every day 
expecting to get an education. But we also feel that socially, 
we have to prepare our children to be prepared for life and to 
be lifelong learners but also to be prominent citizens and 
productive citizens when they get out of school. So every child 
that comes to our school every morning receives a firm 
handshake and a good morning by the principal and other members 
of the school community as they come into the building.
    That's important because the first part of their day 
sometimes makes a difference in how the rest of their day will 
be. As they go into their classrooms, as well, they are given a 
firm handshake by their teacher, a good morning but also eye 
contact. Typically, low-income minority children will look down 
instead of looking up so we teach our children to have eye 
contact with those they are confronted with.
    So the strategies that are most important are looking at 
data, making sure that our instructional program is solid, 
making sure that our children have the social skills that they 
need. Every morning, we have children that go through a social 
program. It's called the Morning Program but also we have kids 
that go through what we call our Morning Rotations. We have a 
conflict resolution class. We have something called Speaking 
Green and that's where our children are taught to border 
cross--they're taught that it's okay to speak slang from the 
neighborhood but when you come to school, when you go to a 
public environment, when you're applying for a job, you have to 
speak proper business English. So we have signs around our 
school that say, Only Proper Business English is Spoken Here.
    Understanding the backgrounds of our children; sometimes 
that can be an insult culturally but we teach our children that 
it's okay to--the defense mechanism and the language that they 
use in their community is okay but again, if we want them to be 
productive citizens, they have to speak business English and 
they have to speak it properly.
    We have an etiquette class where we teach our children also 
how to conduct themselves when they go to a restaurant, how to 
conduct themselves when they are in the public, when they are 
talking to people. These factors become very important, not 
only for their academic education but for their social 
education.
    Morally, we focus on the belief system. How do we believe? 
We believe all children really can learn. Sometimes your body 
language will indicate whether or not you really care about 
children and we also want our children to believe that they are 
capable of learning. We want them to believe that they are 
someone special and in the morning program, we enforce those 
kinds of guidelines and rules every day by them saying what we 
call the banners every morning.
    Another strategy that we think is critical to the success 
of our children is we are a year-round school. I also represent 
the National Association of Year-Round Education and we believe 
that our children must have a balanced calendar. Eight weeks of 
summer vacation is just a bit much for our children in our 
community because we recognize that that muscle called the 
brain, if it's not used for 10 weeks, sometimes it makes it 
very difficult when they get back to school in September. So 
our kids have a 5-week summer break. Our teachers have a 4-week 
summer break and we go through 9 weeks of instruction and then 
we have 2 weeks of what we call an intersession. During that 
intersession, we look at the data. We determine where our kids 
are deficit and then we focus on those strands, as I mentioned 
earlier, that our kids need--I mean, where we need to improve 
on.
    So teachers are taught how to look at data and take that 
data and use it to re-teach not the entire 9-week curriculum 
but just those areas where our kids have been deficit. It's 
been proven for us to be successful.
    We also have a longer day. We have an extended day. Our 
children arrive at school at 8:15 every day and they go home at 
4:30. Not only do we provide time for additional character 
development, because we think that's important but we want to 
provide additional instructional time as well.
    See, we recognize that all children don't process at the 
same speeds. So those kids that need more time, we provide them 
additional time and that's why we have the longer day and 
that's why we have that balanced year-round calendar with the 
mandatory intersession. So consequently, our kids are in school 
for 205 days a year as opposed to 180 days a year and it makes 
a difference. The longer children are with us, the better they 
have a tendency to do.
    Our middle school kids; their test scores in the Virginia 
Standards of Learning are sometimes--very often in the last 3 
years, far exceed those of any school in our district. We 
usually have the strongest writers and readers and for those of 
you that know the background of minority children and their 
writing skills, typically we don't do very well. But we have 
the strongest writers in our school district just based on the 
Virginia Standards of Learning and we're very proud of that 
because we teach our children that writing is critical and when 
we teach them to speak correctly; when they hear it correctly, 
very often they'll write it correctly. So we look at that as a 
very important strategy. Reading is the key to the success in 
their life and we know how important that is.
    So those are three strategies, the focus on instruction, 
the focus on their framework, providing more time for our 
children to learn with the longer day and providing additional 
time on a year-round basis. We also have 26 weeks of Saturday 
School. So those children that need additional time, from 9 
a.m. to 12 p.m. on Saturdays, we provide Saturday School and 
typically, we have, out of 1,200 kids in our population, we 
have about 250 kids that are in Saturday School because they 
need the additional time. Thank you.
    [The prepared statement of Mr. Coleman follows:]
                 Prepared Statement of Richard Coleman
 An Achievable Dream--``Breaking the Cycle of Poverty Through Social, 
                     Academic and Moral Education''
    An Achievable Dream (AAD) is a collaboration of public and private 
organizations that runs a comprehensive K-12 public school program. 
Newport News Public Schools provides the instructional and support 
elements common to all schools in the city, including curriculum, 
student services, basic staffing, transportation, food service, and 
maintenance. The private arm, through the mechanism of the nonprofit An 
Achievable Dream, Inc., raises funds for and operates all the 
additional components that contribute significantly to the program's 
effectiveness: the extended school day, longer school year, uniforms, 
tennis equipment and instruction, curriculum enrichments, technology, 
parent involvement activities, and program evaluation. At present, AAD 
operates a K-8 Academy with students in grades 9-12 continuing in the 
program while attending a comprehensive high school in the district. 
Beginning with the 2007-2008 school year, AAD will operate its own 
Middle and High School Academy so that students have full access to the 
array of AAD services through their primary and secondary school years.
                an achievable dream specific strategies
    An Achievable Dream's selection and integration of specific design 
elements is based on available evidence of strategies that are 
effective at promoting the educational success of minority and low-
income students. (Note: Among 1,000+ An Achievable Dream students, 100 
percent qualify for free or reduced lunch and 98 percent are African-
American.) Among those that have the most influence on program design 
are:

    <bullet> Evidence that in urban schools, minority and low-income 
students are more likely to achieve at lower levels, need remedial 
services, be retained, and drop out and less likely to take advanced 
courses or apply to college. They are less likely to receive health 
care and more likely to become involved in the justice system, bear 
children during adolescence, and, as adults, be unemployed or 
underemployed and depend on public assistance. Equally compelling is 
evidence that with appropriate supports and high expectations, they can 
achieve and succeed at levels consistent with those of white and 
affluent students. At An Achievable Dream, expectations are uniformly 
high, clearly articulated, and consistently reinforced by teachers, 
staff and volunteers.
    <bullet> Evidence that students lose academic ground in the summer. 
An Achievable Dream is a year-round school, with its extra 30 days 
organized into three mandatory intercessions between regular quarters.
    <bullet> Evidence that extended instructional time can yield 
results in student achievement. An Achievable Dream's day is 2\1/4\ 
hours longer than the city norm and the year 30 days longer. This 
schedule makes time available for more intensive instruction in basics, 
as well as for curriculum enrichments (foreign language, technology 
education, the arts) and special offerings like the positive conflict 
resolution program, etiquette and Speaking Green (proper business 
English).
                           program evaluation
    An Achievable Dream believes that evaluation is essential both to 
identify areas in which modifications are needed to strengthen the 
program and to demonstrate its effectiveness to other communities 
seeking evidence-based strategies for serving inner-city youth.
    Outcome evaluation focuses on two areas: educational achievement, 
as measured largely by standardized testing and college acceptance, and 
behavioral performance, as measured by the incidence of infractions of 
school policies (ranging from cheating, lying, and insubordination to 
those involving weapons, alcohol, and drugs).
    The program has contracted with the School of Education at the 
College of William and Mary for continuing, objective, and systematic 
evaluation. In assessing outcomes, Achievable Dream students are 
compared to a control group of students matched by age, gender, 
socioeconomic level, and academic status. William and Mary also 
assesses parent satisfaction through focus groups, individual 
interviews, and surveys.
    The key findings from a 2-year study by William and Mary, issued 
July 2006:

    <bullet> Compared with the match group, An Achievable Dream 
students in grades 3 and 5 scored higher on every portion of the 
Standards of Learning academic tests and on a standardized reading 
test.
    <bullet> The number of disciplinary referrals for Achievable Dream 
students was less than half that for the match group. Dreamers miss 
less school.
    <bullet> Parents involved in the program are extremely satisfied 
with their children's learning, the performance of teachers, 
communication and relations with the school, and the school 
environment.
    <bullet> The most significant finding is that An Achievable Dream 
is effective at closing the gap between white and black students. On 
statewide tests, Dreamers--98 percent of whom are African-American and 
all of whom are eligible for free or reduced price lunches--outperform 
other minority students in the city. They pass the Virginia tests at 
rates approaching or identical to the rates for white students. On some 
tests and grades, they closed the racial gap typical in most schools 
and on other tests narrowed it to only a few percentage points, 
compared to the 15-30 percentage point gap between black and white 
students in the city, the State and the Nation as a whole.
Advancing the principles of positive youth development
    An Achievable Dream does this through:

    <bullet> Surrounding children with high, clearly articulated, and 
consistently reinforced expectations. It is blatantly clear: these 
children are preparing for college, for careers, and to become 
contributing members of their families and communities. These 
expectations are reinforced in daily morning character development 
exercises, classroom discussions and proclaimed from banners in the 
hallways.
    <bullet> A strong and pervasive character education program that 
helps children develop critical values--honesty, respect, 
responsibility, loyalty, courage, self-discipline, integrity, and 
patriotism.
    <bullet> Equipping children for the world of success through 
programs like etiquette classes and the ``Speaking Green'' program, 
which fosters poise, public speaking skills, and fluency in standard 
English. The ``Peaceful Conflict Resolution'' program teaches 
nonviolent ways to resolve disputes.
    <bullet> Fostering a sense of identity with a positive group that 
is an antidote to the lure of street gangs. From the earliest years, 
students identify themselves as Dreamers, an identity that is bolstered 
by uniforms, and the distinction of attending a school that has a high 
profile in the community.
    <bullet> Requiring and supporting the involvement of parents, one 
of the strongest weapons in the quest to develop strong children. All 
parents must sign a pledge to volunteer in the school and make 
education a priority at home. They review children's binders daily and 
can take a variety of classes in the parents' night school.
    <bullet> The program incorporates services to prevent and treat 
health needs and promote students' well-being. An on-site health clinic 
serves students and their families, and the ``Healthy Living'' 
curriculum emphasizes healthy habits and living, including nutrition, 
exercise, hygiene, and healthy daily schedules.
                          district strategies
    Newport News Public Schools, like many urban districts, is working 
to assist a number of schools that have been identified for improvement 
under the No Child Left Behind Act, specifically schools that did not 
meet Annual Yearly Progress Determinations (AYP) for two or more 
consecutive years. One school improvement strategy the district has 
pursued is the closure of Briarfield Elementary School, whereby 
Briarfield's students (with similar demographics to AAD students) were 
absorbed into AAD's elementary and middle school programs, while 
Briarfield's campus is to be converted to the new An Achievable Dream 
Middle and High School.
    While no district likes to think about closing schools, this 
public/private partnership has demonstrated how a bad situation can be 
turned into a win-win for the district, students, parents and the 
community.
                              challenge #1
    With Newport News Public Schools, An Achievable Dream operates a K-
8 Academy. Historically, when they graduate from the 8th grade, AAD 
students attend a comprehensive public high school (Heritage High 
School), a school in year 2 of improvement, where the current high 
school ``culture'' does not share the academic expectations and the 
disciplined structure to which AAD students have grown accustomed. The 
social pressure at this 1,800+ student high school to not achieve is a 
grave concern, and has had a negative impact on AAD students in terms 
of academic achievement.
    Research shows that in the mid-1990s, high schools began receiving 
better-
prepared students, after numerous reform efforts focused on elementary 
and middle schools, but achievement remained flat at the high school 
level. One of the problems is size: Many of today's high schools have 
enrollments of 2,000, 3,000, even 4,000 students which make it 
difficult, if not impossible to govern and emphasize the academic part 
of the curriculum. Further research shows that students drop out of 
school because they are bored or do not think material learned in high 
school applied to real life. Specific research on An Achievable Dream 
high school students supports the findings that achieving academic 
success in a large high school is a challenge.
                                solution
    This year, alongside Heritage High School, An Achievable Dream is 
building its own dedicated 500-student middle and high school. Where it 
has closed the achievement gap, An Achievable Dream will now be able to 
close the ambition gap by giving students future goals to work toward. 
An Achievable Dream, working as a laboratory school, is developing and 
will test new ways to excite students to keep them in school, and to 
motivate them to graduate and pursue college, further career training, 
or the military. The campus is an innovative partnership of An 
Achievable Dream, Newport News Public Schools, the city of Newport 
News, regional corporations and regional universities.
    The enriched academic program will prepare students for successful 
careers by allowing them to explore and plan for intended vocations. 
Students will be exposed to 12 primary career paths, including: 
college, the military, police and fire, medical technology and nursing, 
shipbuilding, computer technology and other 21st century careers. 
Enrichment classes in math, science and technology will be offered in 
partnership with Virginia Modeling Analysis Simulation Center and 
Northrop Grumman Newport News. Medical careers will be directed by 
Riverside Health System, homeland security (police and fire) through 
the city of Newport News, and entrepreneurship through Ferguson 
Enterprises.
                              challenge #2
    One of the national education community's and An Achievable Dream's 
greatest challenges is teacher recruitment and retention, specifically 
in urban schools. The national average tenure of urban teachers is 2-3 
years. While An Achievable Dream has been fortunate to find and hire 
many committed, long-term teachers, it is increasingly more difficult 
to fill teaching positions when they do come open.
                                solution
    Old Dominion University (ODU), in nearby Norfolk, Virginia, will 
establish the Center for Urban Teacher Training, Education and Research 
(CUTTER) on An Achievable Dream's new middle and high school campus. 
The Center will initially focus on preparing AAD teachers to staff the 
new 6-12 campus. Later, the Center will open its doors to teachers from 
districts within the region and beyond. The Center will become a 
national model for urban teacher professional development, education 
and research.
    The Center will invite K-12 teachers and administrators and higher 
education faculty from communities across the globe to join ODU in 
improving teaching and learning. In order to improve teaching and 
learning at scale, universities and schools must join forces with the 
community to strengthen its instructional core by increasing teachers' 
skills and knowledge in combining instruction and assessment; enable 
students to be active agents for their own learning; enable teachers 
and higher education faculty to serve as ``coresearchers;'' and ensure 
that the curriculum challenges the students academically.
    Getting assessment ``right'' is more important than ever for 
African-American children as we near 2014 when all children must meet 
NCLB requirements. With a growing knowledge of how people learn, it is 
critical to develop assessments that help teachers diagnose students' 
comprehension more precisely and accurately.
    In essence, the Center moves school improvement to the university 
and teacher development to the urban classroom.

    The Chairman. Mr. Flanagan, we're grateful to you for being 
here. We had our colleagues from Michigan that wanted to make 
sure we extend a warm welcome to you. Nice to have you. Thank 
you.

   STATEMENT OF MICHAEL P. FLANAGAN, STATE SUPERINTENDENT OF 
                 INSTRUCTION, STATE OF MICHIGAN

    Mr. Flanagan. Thank you very much, Chairman Kennedy and 
Senator Enzi and the rest of the Senators for taking time to 
listen to this panel. I've learned a few things already myself 
so we've got a good start.
    I've been a lifelong educator but have only been the State 
Superintendent of Schools for about a year and a half in 
Michigan and I need to tell you just straight out that No Child 
Left Behind is really the spirit behind what drove our change 
in Michigan. I think there was reluctance to accept some of the 
No Child Left Behind specifics in the beginning but here's what 
No Child Left Behind did for us.
    It finally focused us in Michigan on all children. In the 
system, we've been kind of well-intentioned hypocrites up until 
No Child Left Behind. We've said things like all kids can 
learn. We've said it for decades but we have numbers that don't 
demonstrate that. So one of the things, when I was able to come 
to this position and Governor Granholm and a bipartisan State 
board worked extremely well together, as we said we've got to 
change the cultural learning in our State.
    We had a perfect storm. We still have a perfect storm in 
Michigan. We've got an auto industry that's kind of a little 
shaky if you haven't heard, although they're coming back. And I 
think my job is more to take kind of a Model T system that we 
have in place and modernize it the way our car industry is 
doing.
    But we have this perfect storm of the auto industry which 
is shaky and the cultural learning that you could actually be a 
high school dropout in Michigan and earn a great living. I grew 
up in New York. When I first came to Michigan, my wife's 
cousin--who is smarter than me, who clearly was intelligent--
was driving a Lincoln and I was driving a Pinto. He had a place 
up north, a cottage. I didn't know what up north meant at the 
time but it's where people in Michigan go. And he was a high 
school dropout. And I couldn't figure out what's going on. I 
had worked through the system and had a couple of degrees and 
it's because we rewarded, in Michigan, high paying auto 
industry jobs without an education and we're still dealing with 
this. It's in the water.
    So we finally decided last year, with the Governor's 
support, bipartisan State board, we're going to put in the 
highest rigor in high school graduation requirements, learning 
from what other States have done and we've done that. That's 
the first step because it will get us to the spirit of all 
means all. You know, once and for all, all means all.
    The beauty of No Child Left Behind is that it has helped 
us--it's helped us see our faults. If you look--when you have 
to look at subgroups, you have to look in the mirror and say, 
this isn't all hunky dory.
    I was a local superintendent in the late eighties and early 
nineties outside of Detroit and we had three very poor schools 
bordering Detroit. But in general, our aggregate scores were 
all great so we all kind of felt everything was great, when in 
fact, our poor schools, which isn't a race issue, by the way. 
In Michigan, this sometimes is mistaken for race when really, 
it's a poverty issue and kids with high, free and reduced 
lunch. Now we have to measure under No Child Left Behind and 
I'm glad about it. I think it has made all the difference.
    So we're finally getting to a point where we're going to 
try imagine our State with 2 million kids in our State, all 
achieving at high levels, something we've never accomplished 
before, getting off this auto industry mindset that you can 
make a good living without an education. When I first came into 
this position, we surveyed districts and only a third of them 
required Algebra I. I mean, how do you do well at all if you 
kind of wink and believe that some kids don't need to learn 
Algebra? So we've actually got requirements that now have all 
kids exposed to Algebra II.
    And some of that, for example, may be a career tech 
sequence, where you're learning the pathagorium theorem in a 
building trades course. You don't need to learn it in an 
algebra course. And we've changed our mindset from courses to 
credits. As long as you can demonstrate mastery, we don't 
really care about the seat time. And this has all been driven 
by the spirit of No Child Left Behind, which I thank you for 
and we have been a supporter from the beginning of this.
    You mentioned, Senator, our principle academies and some of 
those specific strategies we've used that is in detail in our 
testimony so I won't belabor that. What I would say if I had to 
mention a few, just a few things that might strengthen No 
Child--one, my colleagues in the Council of Chief State School 
Officials. They are called commissioners in some States. I'm 
called a superintendent and one of the highlights, I think, 
that Senator Kennedy has dreamed about from the beginning of 
this legislation was that we would have proper resources and I 
think there is a place to strengthen some of the resources 
there, although frankly, we're going to do it with or without 
it.
    But I think there are some places--for instance, you really 
can't do the tutoring part of this if you're not financing the 
tutoring part. But putting that aside, the only other thing I 
would kind of highlight would be the fact that there seems to 
be some inconsistencies with what is approved between States. 
You know, Arizona has been approved for some things when it 
comes to ELL students that we weren't able to get approval on 
and these are hardworking people in the Department, by the way. 
This isn't a criticism of the Department. I find them to be 
very helpful. I think it has more to do with some of the ways 
that we could improve on No Child Left Behind law.
    It's an honor to be here today.
    The Chairman. Just before you leave, you had 163 schools 
that moved off of State warning lists. Just talk about that 
quickly and then we'll move on.
    Mr. Flanagan. Senator, what this comes down to--I'm glad 
you have such a diverse panel because one thing you'll find is, 
it's not about people like me. We have something to do with the 
system. It's ultimately about teachers in the classroom. How do 
you support the teachers in the classroom? We have trained 
turn-around specialists. So we have people that we use in what 
we call our intermediate school districts. These are county 
systems with consultants and teams that go in and turn around a 
school in terms of academic achievement and we only focus on 
what we call our high-priority schools. Frankly, we're not 
going to spend any time in Grosse Point. They're doing fine. 
But we're going to spend time in the schools that need the most 
help and those are the schools that got turned around and it 
had to do with coaches academies, it had to do with principals 
academies because of the leadership comment that the good 
doctor mentioned earlier but most importantly, it was to give 
strategies to teachers on how you deal in the classroom on a 
day-to-day basis and care about all kids and work toward their 
academic achievement.
    [The prepared statement of Mr. Flanagan follows:]
               Prepared Statement of Michael P. Flanagan
    Chairman Kennedy, Senator Enzi, and distinguished members of the 
Senate Health, Education, Labor, and Pensions Committee, I am extremely 
honored and pleased to participate in your kick-off round table 
discussion on the reauthorization of the Elementary and Secondary 
Education Act, and specifically the amendments that were made to it in 
2001 with the passage of the No Child Left Behind (NCLB) Act.
    On behalf of Governor Jennifer M. Granholm and Michigan's State 
Board of Education, I thank you for providing the Michigan Department 
of Education this special opportunity to testify here today on the 
successes the State of Michigan has experienced with the implementation 
of NCLB as well as sharing the challenges we have encountered that make 
it difficult to provide a fair and reasonable accounting of all schools 
and almost 2 million students in Michigan.
    I applaud the committee's interest in hearing from those of us who 
have worked diligently throughout the country to implement this 
groundbreaking legislation. As the Superintendent of Public Instruction 
of the State of Michigan for just the last 18 months, although always 
an NCLB advocate, I have had literally a crash course in understanding 
that the critical role of States is in providing the direction and 
leadership necessary to assist schools and districts in meeting the 
goals of the No Child Left Behind Act.
    Michigan chose to immediately embrace the new law--viewing it as an 
opportunity to create a statewide focus on school improvement and 
student achievement for every child. Michigan was one of only a dozen 
or so States that already had begun to determine Adequate Yearly 
Progress (AYP), as prescribed in the Improving America's Schools Act of 
1994. As a result, many of our highest-need schools began the NCLB era 
further down the Federal ``sanctions'' path than similar schools in 
other States. As such, Michigan has helped blaze a trail for NCLB and 
stands as an innovator and model for other States to follow.
    Michigan has embraced the moral imperative of NCLB that schools 
must provide the highest quality education for every child, regardless 
of race, culture, background, or learning ability. And I mean every 
child--ALL means ALL. Clearly, NCLB has served as a catalyst for reform 
focusing on the importance of instructional excellence and student 
achievement, and brought attention to every child in the classroom.
    Initially, I want to embrace the recommendations developed by the 
Council of Chief State School Officers (CCSSO) that include positions 
and strategies leading us as a Nation from ``No Child Left Behind to 
`Every Child a Graduate'.''
    Michigan has made tremendous strides in increasing student 
achievement and re-tooling its K-12 education system over the past 3 
years.
    Michigan has implemented among the most rigorous high school 
graduation requirements in the Nation; developed grade-level standards 
in math and reading that have resulted in statewide increases on our 
State assessment scores in grades 3-8; instituted a strong support 
system for our High Priority Schools that has resulted in 163 schools 
coming off the Federal sanctions list last year; and will administer a 
new high school test this spring that will help drive more students 
into postsecondary education.
    Michigan also has begun to intensely focus on improving teacher 
preparation programs in Michigan to ensure that we have educators who 
will deliver instruction to our students in innovative and relevant 
measure for our 21st Century learners.
    Michigan's formula for building success in our schools has been 
steady and growing. In 2002, we were one of the first States to adopt 
the Reading First program. Today, Reading First is in 168 schools in 
high need geographic areas; encompasses 2,000 teachers and 40,000 
students; and has resulted in significant increase in the percentage of 
students reading at grade level each year.
    We have developed a School Improvement Framework--A research-based 
model of the proven components of school improvement that now serves as 
the blueprint to be used to develop improvement plans in our High 
Priority Schools (those schools not making AYP).
    The Michigan Department of Education also has provided direct 
intervention and support strategies for our High Priority Schools, 
including: Principals' Academies; Coaches' Institutes; and School 
Support Teams assigned to the most critical schools.
    These School Support Teams represent a collaboration with the 
Michigan Department of Education, the State's Intermediate School 
Districts, and the school accrediting organization North Central 
Association. The teams conduct Comprehensive School Audits to 
investigate why a specific school is not making AYP, and assist the 
schools with developing an improvement plan based on audit findings.
    Michigan's NCLB system of AYP sanctions has been established as 
``Phases,'' where after 2 consecutive years of not making AYP, a school 
goes into Phase 1 (school choice and transportation); after 3 
consecutive years, Phase 2 (Supplemental Educational Services, plus 
school choice and transportation); and so on, through the Federal 
requirements for sanctions.
    Michigan's Phase 1 and 2 schools are provided with training and 
their own nationally-recognized MI-MAP Kit. Developed by educators for 
educators, MI-MAP provides over 300 practical strategies and activities 
to shape, support, and sustain systemic reform and academic 
achievement.
    For schools in Phases 3-5, in collaboration with the College of 
Education at Michigan State University, we developed a Coaches' 
Institute and trained 93 turn-around specialists to work with 
principals and school improvement teams as an alternative governance 
option.
    Michigan has schools in NCLB Phases 6 and 7 that are placed on a 
``critical list.'' For these schools, we administer a comprehensive 
school audit, and turn-around specialists are assigned. This year, 
we're collaborating with the North Central Association to identify 
audit teams from their cadre of ambassadors.
    Creating this kind of statewide capacity requires solid 
partnerships with our intermediate school districts (education service 
agencies), the professional education organizations, and universities.
    As Michigan has led the way in meeting the requirements of NCLB, we 
have recognized and understood that it is a complex and comprehensive 
law that has been a true work-in-progress. Through the first few years 
of setting rules, regulations, and guidance, adjustments and amendments 
have had to be made at the Federal, State, and local levels.
    NCLB was fostered with the intent of transparency and 
accountability on the Nation's public schools. Yet as my colleagues at 
CCSSO have agreed, each State is allowed different standards by which 
to determine AYP and each State has had different experiences in having 
their State plans for accountability approved.
    By and large, the USED has been helpful to us as we have tried and 
tested; discovered what works and what doesn't work; what is fair and 
what is not fair for all schools; and continued to improve our State 
plan of implementation. However, like all things, there is room for 
improvement.
    Michigan has urged the U.S. Department of Education to allow 
English Language Learners to be proficient in English before being 
tested, only to be denied. Our efforts to allow students to take 5 
years to complete high school in some cases, in order to reflect the 
realities of today's evolving high school models, also have been 
rebuffed.
    Michigan needs to be able to assess less severely cognitively 
impaired students with ``in between'' assessments that are rigorous but 
not necessarily tied to our grade level standards. These less severely 
impaired students should not be measured by regular State assessments 
and are not likely to achieve regular grade level standards. Yet they 
are not so severely impaired as to be eligible for the lower-level 
alternate assessments currently in place for ``severely cognitively 
impaired.''
    Supplemental Education Services (SES), or tutoring, should be the 
first provision required on the Federal sanctions list, rather than the 
second phase; and States should be provided adequate resources to 
administer and monitor these services. SES providers also should meet 
the same highly-qualified standard in their subjects as classroom 
teachers.
    SES is an expensive, time consuming, and administrative-heavy 
option. In Michigan's successful experience, clear learning 
expectations, improved classroom instruction and effective school 
leadership has had a much greater impact in turning around achievement 
than SES or choice and/or transportation. We would like to see the 
Regional Assistance Centers playing a more significant and increasing 
role in helping States with monitoring and evaluating SES providers.
    Again, I would like to echo my colleagues in a call to strengthen 
resources to fully recognize the increased roles and responsibilities 
of States and the ever-increasing challenges for districts to meet the 
NCLB requirements.
    Every reform initiative has its challenges. NCLB is no exception. 
However, in Michigan we are encouraged by our results and believe that 
this endeavor will have a positive impact on our State for generations 
to come. Thank you for affording us this opportunity to share our 
experiences.

    The Chairman. Hosanna Johnson. Again, comes to us from the 
Chicago Public Schools. We thank you.

STATEMENT OF HOSANNA MAHALEY-JOHNSON, EXECUTIVE OFFICER, OFFICE 
      OF NEW SCHOOLS, CHICAGO PUBLIC SCHOOLS, CHICAGO, IL

    Ms. Mahaley-Johnson. Good morning, Senator Kennedy, Senator 
Enzi and the other Senators who have taken time out of your 
busy schedules to be here today. As an educator, it means a lot 
for me to be here and to see you here as well.
    By way of introduction, I am a graduate of public schools 
and when we talk about under performing schools, I know them 
well because I attended them. So when I talk about what we're 
doing, I know it firsthand because I lived it as a student.
    In Chicago, we are employing a Fresh Start strategy. We're 
doing a number of other things that my colleagues have 
discussed but I want to focus on our Fresh Start strategy and 
that is where we have made the decision to close some of our 
chronically under-
performing schools and re-open them. It's a very drastic 
measure and one may ask, why would we do that?
    We did it because in 2002, we looked at our student data 
across the city and in Chicago. We have 50 communities and we 
found that half of them--in 25 of them, over 75 percent of the 
children there were attending chronically under-performing 
schools. Over 200,000 children were attending chronically 
under-performing schools. When we looked at the data, we knew 
that our investments in additional staff and smaller class size 
and curriculum--we knew that those things were making a 
difference but it was gradual and for those children, we felt 
that gradualism wasn't enough. These are children who couldn't 
afford to wait 5 to 10 years for the reform efforts to take 
hold so we decided to do something to accelerate progress.
    In 2002, we closed three schools. Two of them are widely 
known in Chicago. One is Dodge and one is William. They are 
widely known because we reopened them. When we made those 
decisions, it was a wake-up call for us, the parents and all of 
the adults. Public outcry was significant. We spent time having 
community meetings and talking to others and one of the 
questions we would always ask the adults, is that 20 years from 
now, would you be able to look these children in the eye and 
tell them that you did the best that you could? And if not, 
then we need to take a new approach.
    So results. When we decided to close Dodge--I'll use 
Williams. When we decided to close Williams Elementary School 
in 2002, 15 percent of the students were meeting State 
standards. It was closed for 1 year. Last year, in 2006, 64 
percent of the students are achieving--are meeting State 
standards, a 50-point increase.
    Dodge is another example. A different part of town. When we 
closed, 24 percent were meeting State standards in reading. 
Last year, 57 percent, almost a 35-point increase in 3 years.
    So is this a strategy for all situations? No. But for 
children who can't afford to wait, we do think it's 
appropriate. In 2004, we took the strategy to scale and set a 
public commitment to open 100 new schools over the next 5 to 6 
years and today, we've opened almost 50. They are fairly new so 
some performance data is not available but there are some signs 
that show that the strategy is taking effect.
    When we look at the mobility rate of the schools, it is 
half of the mobility rate for the district. We look at the 
graduation rate of the high schools that have been open longer. 
It's 15 percentage points higher than the district. When we 
look at attendance, it's 5 percent higher than the district 
average. We conducted teacher surveys in all of our schools. 
The teachers in the new schools felt more collective 
responsibility, innovation and program coherence. I could go on 
and on but there's lots of evidence that says that this is 
working for those communities.
    You asked about challenges. One of the challenges we faced 
was public perception. Some felt that closing a school was a 
draconian measure and when we closed them, there was some 
student mobility and we recognized that the student mobility 
was not positive and that many parents preferred to keep their 
children in schools in the neighborhood because it was more 
convenient for them.
    Last year, we launched a new strategy called a Turnaround 
School and I think I've heard some of my colleagues refer to 
that. The Turnaround School that we had, all of the children 
stayed but a new team of adults came in. It was not just a new 
team of adults but 25 percent of them are nationally board 
certified. Twenty-five percent of them have a record of 
effective teaching. And how did we incite them to come into the 
school? We did offer a bonus to them. So those 25 percent of 
teachers are receiving an additional $10,000 every year and we 
expect them to teach. We expect them to share best practices 
and mentor the younger teachers. Also in that model, we partner 
with an organization called the Academy of Urban School 
Leadership. It's an organization that trains mid-
career professionals to come into struggling, under-performing 
schools.
    So just in summary, in Chicago, one of the strategies we're 
using is a Fresh Start. We've gotten great results and our 
challenges are public perception and also the charter cap. We 
have one charter left in the city of Chicago.
    [The prepared statement of Ms. Mahaley-Johnson follows:]
             Prepared Statement of Hosanna Mahaley-Johnson
                                strategy
    Question 1. What specific strategies, programs or polices have been 
effective in addressing your process of school improvement?
    Answer 1. The Chicago Public Schools have employed a variety of 
school improvement strategies over the past 10 years. Efforts have 
ranged from curricular reform and increased professional development to 
full scale turnarounds. The Illinois General Assembly 60 charter 
schools for the State. Thirty were given to Chicago, twenty-nine have 
been used, and there is only one left.
    The student achievement, increased demand, and strong parent 
satisfaction in charter schools set the stage for the Renaissance 2010 
initiative, announced in June 2004. Renaissance 2010 calls for 100 new 
schools by 2010. This bold plan closes chronically under-performing 
schools and sets up a competitive, community-based selection process to 
determine the best school operator for each site. These schools are 
held accountable for performance through 5-year contracts while being 
given autonomy to create innovative learning environments using one of 
the following governance structures: charter, contract, or performance. 
The vision of Renaissance 2010 is to:

    <bullet> Provide diverse education options for parents and 
students,
    <bullet> Serve chronically underserved communities throughout 
Chicago, and
    <bullet> Act as a catalyst for new education strategies in the 
district.
                         outcomes & performance
    Question 2. What outcomes or progress have been made as a result of 
these strategies?
    Answer 2. Starting fresh has been a way for CPS to successfully 
turnaround schools. We are fortunate in Chicago to have Office of New 
Schools that has nurtured and partnered with a number of local 
education management organizations with proven ability to run schools. 
Such partner organizations have the ability to leverage outside 
resources and foster innovations that as a large district, it is hard 
for us to do.
Case Study
    In 2002, the Chicago Public Schools took the unfathomable step of 
actually closing chronically failing schools. That year three schools 
were closed and a year later, two new schools opened under brand new 
management with renovated faculties. The two schools, Dodge and 
Williams, are models of what our system has done right.


------------------------------------------------------------------------
                                      Reading  Reading    Math     Math
                                        2002     2006     2002     2006
------------------------------------------------------------------------
Dodge...............................     23.6       57     28.3     67.2
Williams............................     14.6     53.8     15.9     69.5
------------------------------------------------------------------------
* Although the 2002 and 2006 tests were different, the scores have been
  equated.

Indicators
    There are indicators that new and charter schools are accelerating 
academic achievement. The Office of New Schools currently manages 83 
new schools which include 24 pre-Renaissance 2010 charter schools, 54 
Renaissance 2010 schools, and 5 professional development schools 
(professional development portion only). Below are a few highlights of 
new schools:

    <bullet> Over 1,700 Renaissance 2010 students are new to CPS 
(kindergarteners were not included).
    <bullet> 19 school leaders are alumni of New Leaders for New 
Schools.
    <bullet> Nearly 300 community members have served on Transition 
Advisory Councils (TACs).
    <bullet> Over 800 individuals subscribe to the Renaissance 2010 
Report.
    <bullet> 89 percent of Renaissance 2010 students reside in primary 
or surrounding community of the school they attend.
    <bullet> Students are transferring out of Renaissance 2010 schools 
at nearly half the rate of the district (7.7 percent vs. 14.1 percent).
    <bullet> New schools have a higher graduation rate than the 
district (89.9 percent vs. 73.4 percent).
    <bullet> Charter school students have a higher attendance rate 
(Elementary schools: 94.6 percent vs. 94.4 percent and High school: 
93.1 percent vs. 86.0 percent).
    <bullet> Charter schools are making upward progress in ISAT 
composite scores and closing the achievement gap across students that 
meet State standards.
    <bullet> Teachers in new schools feel like they have more 
collective responsibility, innovation, and program coherence in their 
schools.
    <bullet> High school students tend to feel more supported, safer, 
and have higher expectations in new schools.
    <bullet> Over 4 years, high schools' students experienced an 8 
percentage point gain in PSAE scores compared to 4 points made by the 
district.
    <bullet> New schools rank top 5 in all but one category for the CPS 
High School Score Card.
                           public perception
    Question 3. What challenges did you encounter in your improvement 
efforts and how did you address those challenges?
    Answer 3. School closings and investment in new schools creates 
push back from the community. There is a history of distrust that 
creates a barrier with the community and many feel new school 
development is part of a larger plan of gentrification. There is also a 
belief that the students being served are not from the community and 
the schools are handpicking the best students. However, we have found 
that 89 percent of Renaissance 2010 students in formerly closed schools 
reside in the primary or surrounding community.
    Transition Advisory Councils (TACs) were created to serve as 
liaisons between Chicago Public Schools and communities. Representing 
the voice of the community, a TAC works to ensure that new schools 
offer high quality educational options that reflect the community's 
needs and interests. Through TACs, some of our most vocal opponents 
have become our most vocal supporters. TACs collaborate with CPS in the 
following ways:

    <bullet> Meet regularly to discuss and determine the community 
needs in the new school;
    <bullet> Conduct community outreach activities and collect citizen 
input;
    <bullet> Network and host public forums with community leaders, 
groups and organizations; and
    <bullet> Make recommendations to CPS about the new school 
proposals.
                              charter cap
    CPS welcomes opportunities to provide students and parents with 
educational choices, including charter schools. CPS has had significant 
success with charter schools and generally supports efforts to expand 
the number of charters available to the district. We believe that 
Illinois should ideally raise the charter cap on its own. In the 
meantime, however, no one's child should be ``trapped'' in a failing 
school. If the State will not raise the cap, we welcome the Federal 
Government's willingness to ``step up'' on behalf of the children and 
support parental choice. We support charters for chronically under-
performing schools and legislation that gives the district the broadest 
range of options to meet our restructuring needs. We also note and 
support this provision of the reauthorization of the NCLB Act.
                          student displacement
    The drawback to closing and re-opening schools is the displacement 
of students. Acknowledging that student mobility can disrupt academic 
performance in some situations, we found a way around it by closing 
Sherman Elementary School in June 2006 and re-opening it the following 
fall. We call it our NCLB Turnaround School because it had not made AYP 
in 5 years. The school is a collaboration of the Academy for Urban 
School Leadership (AUSL), the Joyce Foundation, and the Chicago Public 
Education Fund. The students stayed and a new team of adults came in to 
lead the school. CPS asked that AUSL to recruit one quarter National 
Board Certified or Golden Apple-award winning teachers. In this way, 
CPS has delivered the most effective teachers to the students who need 
them the most. Students were not displaced and the parents are pleased 
with the new education program and improved school environment. 
Enrollment has increased from 425 to over 600.

    The Chairman. Thank you very much. Senator Brown has to go 
preside in just a few minutes for an hour or so and will miss 
the time so he wanted to make--he had a couple questions.
    Senator Brown. Thank you, Senator Kennedy, Mr. Chairman. 
Just one question.
    Dr. Flanagan--and I appreciate all of you. This has been 
very enlightening and I hope to take some of these ideas back 
to Ohio. I very much appreciate that.
    The problem that I hear so often and generally, I think 
it's more a function of income than race, whether it's White 
Appalachia, Ohio or inner-city East Cleveland--is the movement 
of students in and out of school during the same school year 
and I know, Dr. Coleman, your comments may have addressed some 
of that but I guess, Dr. Flanagan, if you would--what did you 
do to address the issue of parents who were more mobile, that 
have to move, that they may lose their apartment, they may find 
a job somewhere else. The student is in one school in the 
Detroit schools and then maybe in Hamtramck and then back in 
another school in Detroit. How do you address the continuity of 
learning in that way?
    Mr. Flanagan. That's a great question. We accepted the 
reality of that and didn't use it as an excuse anymore. We've 
kind of used it as an excuse. They're mobile, we can't move 
those kids. So what we did was have what are called Grade Level 
Content Expectations for K-8. They're exactly the same through 
the State so whether you're in Marquette in the Upper Peninsula 
or in Detroit, you will, at the same time and even allow the 
art and craft of teaching to be unique in a 2nd grade classroom 
but the grade level content expectations are the same. If they 
move from Marquette in 2nd grade to go to Detroit for 3rd 
grade, it's the same. After this year, we've finally gotten 
course content expectations for high school to be exactly the 
same, tied in with our new high school requirements. So it 
doesn't matter where you live. You still have the uniqueness of 
developing your own materials and your own approaches in an 
individual district but we needed to have a standard for 
exactly the reason you're bringing up.
    Senator Brown. Dr. Brandon.
    Ms. Brandon. I'd like to just add from a district 
perspective, we have about 40 percent mobility in Richmond City 
Public Schools.
    Senator Brown. In the course of 1 year?
    Ms. Brandon. In the course of 1 year and they're moving 
across town, from one place to the other or from one community 
right next to each other but still going to different schools. 
So our approach was to have a district-wide curriculum, 
district-wide teacher resources, district-wide textbooks, 
district-wide resources, so that if a child moves from one 
school to the other, he or she will not have to overcome the 
gap in the learning curve for those items.
    We also developed pacing guides. We developed assessments, 
sample assessments so if he moves in October from one school, 
he should be in the same place in his instruction when he goes 
to the next school.
    Senator Brown. Thank you.
    The Chairman. Thank you very much.
    Kimberly Johnson.

STATEMENT OF KIMBERLY JOHNSON, PRINCIPAL, BRIGGS CHANEY MIDDLE 
                   SCHOOL, SILVER SPRING, MD

    Ms. Johnson. Hi, good morning.
    The Chairman. The principal of the Briggs Chaney Middle 
School in Silver Spring.
    Ms. Johnson. Yes and good morning, Senator Kennedy and 
Senator Enzi and other Senators that are here as well. I would 
also--I know Senator Brown had to leave but I also wanted to 
reference the mobility piece as I begin to speak.
    We have adopted the VSC as our primary curriculum, which is 
the Voluntary State Curriculum, which is created by Maryland. 
Montgomery County, for a long time, did not want to adopt State 
standards but they understood under No Child Left Behind that 
is how we would be scored. So a student may move from area to 
area but not often out of the State and that is something that 
the State has provided to us as measured indicators and our 
curriculums are based on those. So that's how we address 
mobility.
    I would like to focus my presentation on what it means for 
students and I've heard a lot from my colleagues as to what it 
means from the leadership standpoint and how students should 
feel in a school that is high achieving. But I consider myself 
not only a principal but a principal teacher of all of my 
children. The vision of my school is One Vision, One Voice, 
Everyone Achieves and that is the bottom line for me. Failure 
is no longer an option and that is what No Child Left Behind 
has done.
    Three pieces that you wanted us to mention. One will be my 
speaking on full inclusion and the access of special education 
students to the general rigorous curriculum. Two, what it truly 
means for a student to fall in more than one subgroup because 
they don't just hit the African-American subgroup. You can be 
African-American, poor, and special education all at the same 
time and all three of those have a different, profound effect 
on your education. And third, with the staff development, which 
I've also heard much about as to how do you move a school and 
how do you lead a school so that they understand data analysis 
and they understand the importance of using it in order to move 
students ahead.
    Over the last 3 years, with full inclusion, we have 
transcended or had a paradigm shift in terms of how we treat 
students with disabilities. We have, at this point, unlocked 
their IEPs or Individual Education Plans, unlocked that to find 
out exactly what they need to be served. Often times, we see or 
hear disabled and we think, they can't do. That is absolutely 
untrue. We need to provide these students the opportunity to 
see whether or not they can be successful with the rigorous 
curriculum and measure their results as well.
    I think we said that there was a hypocrisy whereas the 
special education students weren't measured before. They were 
included in a larger picture and forgotten. So now, we have to 
measure their success as well and that is why they need the 
access to the general curriculum and they need to be in the 
classrooms with other students, depending upon disability.
    So it's gotten teachers to understand more fully what it 
means to be disabled. When we think about adults, we probably 
can look around the room or even reflect personally and know 
that we may have had a reading disability or a math disability 
or a speech deficit or any of those types of things but it did 
not dictate where you learned or it should not have.
    So that is what No Child Left Behind has done for special 
education students in my school. They are fully immersed in the 
program and accepted--and they accept now their special 
education status, their accommodations. They advocate for 
themselves. The teachers understand that these students deserve 
to learn, that they must master as well. So that would be my 
first point.
    The second point, as to what it truly means to fall in one 
or more subgroups. We go back and forth as educators to whether 
or not it is race or whether or not it's poverty. Well, often 
times, it's both and that, as I shared earlier, has a 
significant impact on a child's education, meaning if we tell a 
child to go home and study for that evening, they may not be 
able to or they may have to watch two and three children at 
home while their parents are away working. So they don't have 
the quiet space and they are also on free and reduced meals, so 
they may not have much in their cupboards to eat. So there are 
a lot of different areas that focusing in on all eight 
subgroups that you really understand the full child and the 
impact of all of the social aspects of being a child in America 
today.
    The third point would be the staff development and this is 
where teachers need to constantly refine their pedagogy in 
terms of--I have only been out of college, I would say, about 
11 years but with that said, 11 years ago, we weren't learning 
about No Child Left Behind. We weren't learning about data 
analysis. We weren't learning about disaggregating data to 
understand and pull and push each individual child. It was okay 
if 95 percent of the students overall did well because that 5 
percent could represent 100 kids and that was okay. They just 
didn't perform but 95 did. So the paradigm shift in education, 
I think, within the building, within the teaching profession 
and also, hopefully, at the university level so that teachers 
come out better prepared to understand what they are dealing 
with.
    The other piece and I've heard a lot today about the data 
analysis. That is what drives every decision in a school 
because of No Child Left Behind. You look at the student data. 
You look at the overall class data. You look at the year data. 
You look at the content data. And that is how decisions are 
made. That was not so a few years ago. We had different data 
sources but they were not consistent. They were not accurate. 
They were not measurable and they were not given to us in a 
timely manner. So No Child Left Behind, having the data in 
front of us to make decisions based on actually what we need 
and not what we think we need has really allowed many schools 
to move forward because No Child Left Behind really focuses on 
each individual child. And I think sometimes when we think 
about it, that kind of gets lost, that each individual child 
deserves to learn and the data and the legislation brings it 
down to each individual child.
    I think that sums up my position.
    The Chairman. Just quickly, on the special needs children 
and the 3 percent that we have out there, could you just 
address that? You know, that's the limit--that's the regulation 
in the No Child Left Behind Act. How have you been able to deal 
with that? I mean, the way you express this is so uplifting, 
but how have you been able to deal with that kind of limitation 
in the legislation, working with the disabled children, special 
needs children?
    Ms. Johnson. That would not apply to many of my students. 
We're only talking about 2 to 3 percent at any given time but 
the other special needs students still need to be given the 
access to the rigorous curriculum.
    Further, how do we go about categorizing those particular 
students that then don't deserve to be in those classes? So 
that's segregating them and taking them backwards because of a 
disability when we haven't given them the opportunity to show 
us what they're made of. And a disability can be speech. It can 
be anything and then you think about why is a child disabled? 
And the over coating of different minority groups, different 
socio-economic groups. So there are a lot of things that go 
into why a student is special ed, what are their actual needs 
and No Child Left Behind with the testing, can actually have a 
student moved out because they can demonstrate for you, 
proficiency and they no longer need those special ed services. 
But if we don't give them the opportunity, we'll never know.
    The Chairman. Alana Turner is a teacher in Easton, 
Maryland.

 STATEMENT OF ALANA DALE TURNER, TEACHER, EASTON HIGH SCHOOL, 
                           EASTON, MD

    Ms. Turner. Good morning, Chairman and the rest of the 
committee members. I have been a teacher for 30 years.
    The Chairman. Put the mic up just a little closer.
    Ms. Turner. Is that coming out louder? I've taught for 30 
years. I've been teaching mathematics. The key to any new No 
Child Left Behind or any teaching is the students themselves. 
You have to get the student engaged. Without the student buying 
into his education, it's very hard to get them to learn 
anything.
    What we've done in Talbot County is started a one-to-one 
laptop initiative. Last year was the first year we did this, in 
2005, and every 9th grader was issued a laptop computer. This 
year we added the 10th graders so that ninth and tenth now have 
laptop computers. We plan to do this for the next 2 years, so 
at the end of that time, all of our students will have a laptop 
computer to use.
    The benefit from that is they really get to see what's 
going on in the outside world. They're not limited to a 
textbook. They're not limited to the four walls. They get to go 
out and use it as the Webquest. They get to have virtual field 
trips. They get to really bring everything that's out there 
into the classroom.
    We also have used it to improve our math scores because we 
have the Carnegie Learning Cognitive Tutor Program. That's for 
the Bridges to Algebra of Algebra I, for geometry. They can 
then do that in the classroom. Forty percent of the classroom 
time but it's on their laptop. They can also do it at home. 
They can do it at other places in the building. We've had 
wireless put in so it's very easy and very assessable for them 
to make use of it. They're not just sitting there with a 
textbook and paper and pencil anymore. So it gets them engaged. 
They get excited. It's almost more like the games that they're 
going to do on their Playstations and so forth but it's 
technology and they're really interested and involved in that.
    Other people have addressed the special education, the 
special needs children. We have started a collaborative 
teaching process in which we do have a special education 
teacher and a content teacher working together at the same time 
in the same classroom. And with that process, the teachers plan 
together. The special education teacher presents some of the 
content. The content teacher works with the special ed 
students. It's like two for one and you can't really tell if 
there is that much difference between the two teachers. All 
students benefit from it. Anybody that is in the classroom gets 
the extra help that they need and they just feel more 
comfortable. They're not the outsider or they don't feel 
embarrassed to be there. They really enjoy the classes.
    We also, because of this, have a lot of staff development 
going on. The teachers have to be instructed on how to use this 
new technology. They had to be willing to use it. It doesn't do 
any good if the teachers are sitting there with a laptop and 
they're closed. So the teachers do get training in that and 
they are very open to it. They're very successful with it. Out 
of the Governor's Academies that Maryland has offered, we've 
had 16 of our teachers attend just last summer and they brought 
back to the others, teachers in the department, what they 
learned--shared the activities, shared how to use the computers 
and all the technology that is out there.
    With that, our attendance rate has really improved. We're 
up--at a high school, our attendance rate is 94.7 percent, 
which is very good. The graduation rate is 90.85 percent, which 
is increasing at all times. So between the computers, teachers 
working together, the new schedule--we have a four-by-four 
block that is 90-minute classes so teachers could teach 90 
minutes and really get their attention, get them focused. They 
wouldn't have to leave after 40 minutes so that helped. This 
year, we did go to a hybrid schedule and some of the classes 
are 90 minutes while some are 60 minutes and the 60-minute 
classes go all year and that focuses on our high school 
assessment classes, so again, students who learn at a different 
rate anyway, get more time and can focus on that material.
    As for the data, we started using Performance Matters. That 
puts all the data from our classes and I can access my 
students, how they've performed on the math, how they did on 
the English, what they've done in other classes. Just turn on 
the computer, analyze it, see how that is going to help me see 
where their strengths are, see where their weaknesses are.
    We've also put in Parent Connect, which is a way for 
parents to contact the school and look at their grades and 
their discipline records and their improvement and what's 
lacking and so many times a parent will call and say, ``Well I 
see Johnny got a zero in such and such. What happened? Why did 
he do it?'' So the students know the parents can check it a lot 
faster, get back to the teachers and therefore that keeps them 
on task. They are more engaged and wanting to get the 
information done.
    So the major thing with the laptops is engagement, so that 
we can have the students involved because they all do learn at 
different rates. They're not carbon copies and they have 
different interests. However, the challenges are keeping the 
teachers there because there is so much work they have to do, 
the retention rate is not very good. So we have to encourage 
them and give them mentors, give them ways to stay in the 
profession and learn all the technology along with the 
students.
    [The prepared statement of Ms. Turner follows:]
                Prepared Statement of Alana Dale Turner
    Mr. Chairman and members of the committee, thank you for inviting 
me to speak with you today. It's with great pride that I tell you I 
have been a classroom teacher of mathematics for 30 years, and I 
currently teach geometry at Easton High School in Easton, Maryland. I 
graduated from the University of Tennessee, Knoxville Campus, with a 
Bachelor of Science in Education and hold an Advanced Professional 
Certificate in general science and mathematics for grades 5 through 12.
    I am pleased to be with you here today to discuss some school 
improvement strategies that have worked at my school, including student 
engagement, intensive professional development, after-school hours for 
extra help, and the school's one-to-one laptop initiative (every 9th 
and 10th grader is given a laptop). In addition, it is important to 
recognize that every student is different and that teachers have to 
make content relevant to all of them--they are not robots, they can't 
be taught in the same way.
    I was asked to focus my comments on two areas of questioning, as 
follows:

    Question 1. What specific strategies, programs or policies have 
been effective in addressing the progress of school improvement? What 
outcomes or progress have been made as a result of these strategies?
    Answer 1. Easton High School in Talbot County, Maryland, has 
implemented the one-to-one laptop initiative. We are using the Carnegie 
Learning Cognitive Tutor Programs for Bridges to Algebra, Algebra I and 
Geometry. The laptop initiative allows students to access these 
programs at any time rather than just during math class time. So, 
students who need help can go online anytime, anywhere and access the 
tutoring programs in these math subjects. What I've seen with the 
laptop initiative is amazing--the students are more engaged in their 
education because they're using tools that are part of their daily 
lives outside of school. The world has changed, so we as educators need 
to change to respond to the needs of our students. One of the most 
critical aspects of helping any student, particularly one who is 
struggling, is to find innovative and creative ways to make the content 
come alive for that student. Keeping them interested and engaged is one 
of the most important things we do in the classroom--and it's an 
essential ingredient in increasing student learning and achievement. 
Educators need the support to make lesson plans and individualized 
instructions more relevant to every student. That's a key element to 
success for every child.
    We have also established an extra help class for identified 
students so they may get extra help and time on algebra within the 
school day. We have also implemented a pullout and after-school 
intervention program to help students prepare for the High School 
Assessments (HSA). These supports are offered to ensure that every 
child has access to the tools they need to succeed in school. The use 
of technology to help students stay focused on academics during out-of-
school time is beneficial. The other after-school initiative is that 
all teachers have after-school hours, so that students can drop in 
anytime for extra help.
    We have aligned our curriculum to the Voluntary State Curriculum 
and there has been significant growth in the enrollment of our Advanced 
Placement (AP) courses. Maryland School Assessments (MSA), Scholastic 
Assessment Tests (SAT) and AP data show appropriate services are in 
place for Gifted and Talented students.
    We undertook these strategies because it is paramount that the 
curriculum is aligned with State standards and that assessments be 
aligned with the curriculum and instruction provided to students. We 
know that all students should have access to a rigorous, comprehensive 
education that includes critical thinking, problem solving, high-level 
communication and literacy skills, and a deep understanding of content. 
Curriculum must be aligned with standards and assessments, and should 
include more than what can be assessed on a paper and pencil multiple 
choice test.
    At Easton, we know that high-quality staff development is critical 
to keep pace with the increased academic standards. Sixteen teachers 
attended the HSA Governor's Academies. There is continual mandatory 
professional development given on the use of technology in the 
classroom. In addition, more teachers are taking AP Training. The 
higher standards are meeting more of our students' needs. Our 
attendance rate has improved to 94.7 percent and is above the State 
targets. Our graduation rate has increased to 90.85 percent, which 
exceeds the Annual Measurable Objective (AMO) of 80.99 percent.
    While these results are impressive, we are not resting on our 
laurels because there is more work to do. Academic standards are 
updated periodically and educators need to keep pace with developments 
in education that will help us do our jobs better. In addition, I 
believe there should be federally funded salary incentives for teachers 
who achieve National Board Certification, with additional compensation 
for teachers with specific knowledge and skills who take on new roles 
to assist their colleagues. Furthermore, we should expand opportunities 
for education support professionals to broaden and enhance their skills 
and knowledge, including compensation for taking additional courses or 
doing course work for advanced degrees.
    At Easton, special education services are delivered in the 
inclusive setting of the regular classroom using a collaborative 
teaching model. All schools in Talbot County met Adequate Yearly 
Progress (AYP) for this population. Our English Language Learners (ELL) 
have additional teacher time for direct instruction. We have a full-
time ESOL-trained teacher in the building. The MSA and HSA performance 
of our ELL students is generally improving. These results show what can 
be done with a commitment to improvements as well as the necessary 
resources to meet goals. Providing adequate funding to develop and 
improve appropriate assessments for students with disabilities and 
English Language Learner students is imperative.
    We have moved from the 4 x 4 block schedule to a hybrid schedule 
having 45-minute, 60-minute, and 90-minute classes. The 60-minute 
classes are year-long and are mainly the HSA subjects. This gives 
students more time to learn and absorb the material covered. The school 
will then only need to give the HSAs once a year instead of twice a 
year so less class time is disrupted.
    During the 2005-2006 school year, Talbot County implemented 
Performance Matters, an online data management system for 
administrators and teachers. The program will integrate local 
assessment data with MSA data and local benchmarks so administrators 
and teachers will be able to monitor the progress of their students. 
Once teachers learn the program, it will be a very beneficial tool for 
teachers and help save them time. In other words, the time for 
``assessment literacy'' has come, with educators and parents needing to 
know about some of the details of assessments so that they can ensure 
that students have the requisite knowledge as they prepare for 
assessments.
    Parents can use ParentConnect to check their student's progress in 
any class, their attendance, and their discipline record. They can also 
e-mail teachers directly with the program. With more parent involvement 
and support, students are challenged to do better work. In addition, we 
encourage parents to get involved in other aspects of the school, with 
the goal of having programs and resources for the school to become the 
hub of the community. To smooth the transition to a parental 
involvement model, we recommend that as a requirement for professional 
development programs funded through ESEA, educators receive training in 
the skills and knowledge needed for effective parental and family 
communication and engagement strategies.

    Question 2. What challenges did you encounter in your school 
improvement efforts, and how did you address those challenges?
    Answer. 2. The number one challenge is funding. Improving the level 
of technology available--wireless, projectors, laptops--is expensive. 
Providing ongoing training for teachers is mandatory and expensive. 
Upkeep of such an elaborate system is expensive. We do get some funding 
for the Board of Education through the City Council and from business 
partners, but it's not enough to meet our needs.
    I'm proud to be a member of an association that has put together 
such a comprehensive, positive agenda for reauthorizing the ESEA law. 
That agenda is very clear: educators, like you Mr. Chairman, believe 
full funding of ESEA programs is essential for improving our schools. 
In addition, if we truly are going to demonstrate our commitment to 
school improvement, the budget should reflect that goal by establishing 
a separate ESEA funding stream for school improvement programs to 
assist districts and schools, and adequate funds so that students have 
the benefit of assessments that measure higher order thinking skills.
    The new demands on teachers are becoming astronomical. This causes 
frustration, burnout, and low retention rates. Besides teaching, 
teachers have extra pressure on them to get every child to meet high 
standards on one assessment (humanly impossible ones in some cases). 
They have to learn and use new technology, which involves time and 
equipment. They have to keep extensive data to show progress at all 
times, which takes time. They are held accountable for their students' 
results. They have to continually earn credits to maintain their 
certificate, which again takes time and money. With more demands being 
put on teachers, we do not have a high retention rate. A lot of 
educators leave the field within 5 years. That increases the size of 
classes and the demands for those remaining, which in turn adds to the 
frustration and burnout rate.
    Keys to turning this situation around include:

    <bullet> Providing States and school districts with the resources 
and technical assistance to create an effective program of professional 
development and professional accountability for all employees;
    <bullet> Providing Federal grants that encourage districts and 
schools to assist new teachers by pairing them with an experienced 
mentor teacher in a shared classroom;
    <bullet> Providing financial incentives--both direct Federal 
subsidies and tax credits--for retention, relocation, and housing for 
teachers and support professionals who work in schools identified as 
``in need of improvement'' or high-poverty schools, and stay in such 
schools for at least 5 years; and
    <bullet> Providing hard-to-staff schools with an adequate number of 
well-trained administrators and support professionals, including 
education support professionals, counselors, social workers, school 
nurses, psychologists, and clerical support.

    It is not easy to turn around schools that are struggling to meet 
their goals; however, our students deserve no less. Working 
collaboratively, policymakers, educators, and administrators can 
implement strategies that will help schools become better so that 
students reach their full potential.

    The Chairman. Paul. Paul Reville.

    STATEMENT OF PAUL REVILLE, PRESIDENT, RENNIE CENTER FOR 
          EDUCATION RESEARCH AND POLICY, CAMBRIDGE, MA

    Mr. Reville. Thank you, Chairman Kennedy and Senator Enzi 
and members of the committee. I'm grateful for the opportunity 
to have a chance to talk with you today. There are a variety of 
issues that merit attention in the reauthorization of No Child 
Left Behind, among them fixes to the accountability system, 
improvements in the way in which we measure progress and 
success, coherent strategies for the improvement of teaching, 
more focus on early childhood education and other prevention 
strategies and extended learning time for both teachers and 
students but the specific focus of my testimony today is to 
focus on this issue of State capacity to meet the needs of the 
growing number of districts and schools who have been declared 
in need of improvement, corrective action or reconstitution. 
These State agencies are a step removed from the testimony 
we've been hearing today but after all, the intermediate unit 
that exists between the Federal Government and the schools and 
districts that we've been hearing about this morning are sorely 
in need of attention.
    I think the imposition of an accountability system in 
public education then creates sort of moral imperative as well 
as an educational imperative that if we are going to point out 
and call to public attention matters of under performance in 
schools, we need at the same time, then to have the capacity to 
help rectify that situation of under performance. My colleague 
at the Harvard Graduate School of Education, Dick Elmarr, calls 
it reciprocal accountability. For each additional element of 
expectation we add to a school system, we have to provide a 
concurrent element of growth in their capacity to meet that new 
standard or the accountability system really isn't genuine.
    This is a tall order when we think of State education 
agencies because historically, they've been compliance 
agencies. They are relatively modest in size. They have no 
political constituency in most of our State that promote State 
education agencies. But under standards-based reform, there are 
responsibilities that are arguably tripled. They have to set 
the standards. They have to develop assessments and 
accountability systems and at the same time, they are now being 
looked to provide support in matters of school improvement.
    Yet at the same time, they lack the resources, the 
personnel and often the expertise to carry out their critical 
support and technical assistance functions.
    We looked at this matter in Massachusetts, the Rennie 
Center, a couple of years back, the State education agencies 
were all in intervention and Massachusetts is a fairly high 
reform, high performance State in terms of standards-based 
school reform and still, we found some significant issues.
    For example, in 2004, we had 376 of roughly 1,400 schools 
identified for performance deficits and the State was capable 
of providing review to roughly 16 of those schools. There were 
132 districts so identified. The State was able to provide 
review and support services to 17. Now in 2006, our numbers 
have gone up to 629 schools identified, a jump from 420 in 2005 
and we've had no concurrent increase in State capacity to meet 
these needs and there are other States who have far more 
schools and districts as a percentage classified than we do.
    In our study, we asked our superintendents what they need 
from the State in order to realize the ambition of education 
reform, which is, after all, all students of proficiency and 
not surprisingly, they referenced the kinds of things that 
you've been hearing from other members of the panel today. More 
help on curriculum and instruction. More professional 
development. More help in developing leaders and a pipeline of 
leadership for public schools and increased learning time for 
both teachers and students.
    Again, a tall order for a State where the State education 
agency staff is roughly half of what it was in the mid-1980s, 
when again, their responsibilities have roughly tripled. The 
State education agencies' budget, which is a share of all State 
spending, is now less than one quarter of 1 percent. So there 
isn't a substantial commitment there. Indeed, the Boston Public 
Schools, it serves 6.5 percent of all the students in the 
Commonwealth and has an administrative staff that is larger 
than that of the State Department of Education.
    So as I say, Massachusetts is simply an illustration of a 
broader, larger problem. We've done some national survey work 
on this and again, the needs that emerge from schools and 
districts, the needs that they articulate for help from State 
education agencies have to do with strengthening the support 
and assistance in the area of planning and implementation, 
helping to develop leadership and pipelines for new leaders, 
providing better, more thorough, more timely, usable data on 
student performance, helping to develop curriculum and identify 
promising curriculum and instructional supports, providing 
meaningful, quality embedded professional development at school 
sites and focus on building the capacity of districts as the 
intermediate agencies between the State and the school to 
develop their own internal district capacity to help in school 
improvement.
    So by way of conclusion, in 2005 and 2006, when we look out 
there on the school improvement landscape, 26 percent of the 
Nation's schools are now not meeting AYP. Fourteen percent are 
in need of improvement, three percent more in corrective 
action. We're moving toward a goal in 2014 of 100 percent at 
proficiency so we can expect the number of schools and 
districts in need to grow exponentially. So it is crucial that 
State education agencies receive the support that they need to 
assist schools with identified performance problems.
    No Child Left Behind's aspirations are in jeopardy without 
attention to the issues of limited SEA capacity that I've 
described. We are now trying to do a new job in public 
education. We once did a job where it was okay for just a few 
students to reach proficiency. We've now declared our goal to 
be all students at proficiency and we're getting serious about 
that but we can't do it by raising the bar alone. We've got to 
provide the support, the technical assistance, the guidance and 
direction that educators need if they are to realize this 
incredibly ambitious goal in education, which serves all our 
children. So I thank you for your time and attention and I urge 
you to attend to this issue of the resources needed to build 
State education agency capacity.
    [The prepared statement of Mr. Reville follows:]
                   Prepared Statement of Paul Reville
               The Challenges of Building State Capacity
                              introduction
    The context in which State education agencies (SEAs) operate has 
changed significantly in the last 5 years. Once focused primarily on 
compliance monitoring, SEA's, as a result of No Child Left Behind and a 
variety of State-level initiatives, have been thrust into a new leading 
role in the implementation of standards-based reform. SEA's now set 
standards, design and implement systems of assessment and 
accountability, and attempt to provide support and capacity building 
services for improvement efforts in schools and districts throughout 
their States. While this unprecedented shift in direction from 
compliance to service provider might seem sufficiently challenging in 
itself, State departments of education have to grapple with the 
realities of meeting the needs of a growing number of schools while 
being woefully under-resourced, under-staffed and generally unprepared 
to meet these new challenges.
                              the context
    State education agencies are sailing in uncharted waters. The logic 
of standards-based accountability systems has changed the environment, 
calling for schools and districts to be held accountable for getting 
all students to higher levels of proficiency, necessitating that robust 
support services be provided to enable ``underperforming'' schools to 
reach the mandated standards. Thus, SEAs, having designed these 
accountability systems, are now responsible for providing resources and 
support to local schools and districts and for leading school 
improvement efforts. The problem is that SEAs, generally, have 
relatively little historical knowledge or skill in school improvement. 
In addition, little research has been done on State and district 
supports or interventions in low-performing schools, so these SEAs have 
virtually no place to turn to build their knowledge and skills.
    SEAs and districts are also operating in an environment with 
diminished resources where funding levels have not kept pace with the 
increasing demands. States simply have not adequately funded their 
departments of education to meet these growing needs. This lack of 
resources also relates to human resources. State department of 
education staff members, with their history of monitoring compliance, 
often do not possess the skills necessary to provide support and 
guidance for improving schools and districts. In addition, the salaries 
and working conditions for SEA employees are often far below market 
value, leading to a dearth of qualified applicants for SEA positions. 
Finally, the size of the State department of education staff is often 
significantly lower than the number required to adequately serve all 
the schools and districts in need of improvement.
    Compounding the challenge, NCLB accountability measures are 
identifying an increased number of low-performing schools and districts 
and these numbers will likely continue to grow, along with the speed 
with which improvements must be made. According to the Center on 
Education Policy, in school year 2005-2006, 26 percent of schools in 
the Nation were not making Adequate Yearly Progress (AYP) with 14 
percent of schools deemed in need of improvement and 3 percent in 
corrective action. As the AYP targets continue to increase toward the 
goal of 100 percent proficiency for all students in reading and math by 
2014, the number of schools deemed in need of improvement and thus in 
need of support and resources is certain to steadily rise.
    At the same time, school districts are struggling with their own 
capacity issues. At the district level, leaders are working to create a 
culture focused on results and committed to instructional improvement 
that can be sustained over time. District leaders are striving to align 
critical policies to guide practice, support improvement and provide 
the appropriate resources to implement the needed reforms. Districts 
are increasingly striving to use data and evidence to drive decisions 
and revise strategies. Clear expectations about classroom practice are 
another area of focus along with complementary supports for teacher 
learning and adequate investments in professional development. Finally, 
districts are struggling to develop communities of practice in the 
central office and in schools so that the entire staff shares a common 
vision of good practice and beliefs about teaching and learning. (The 
Education Alliance, 2005).
    In this new context, both SEAs and districts are faced with 
challenges and choices when it comes to allocating resources in ways 
that are appropriate to the level of need. Both also struggle to 
determine the intensity and duration of support required by each school 
under their supervision.
              reaching capacity: massachusetts case study
    In 2005, the Rennie Center undertook a modest research project to 
analyze the status of the State's capacity to meet the growing needs of 
schools in need of improvement. The key research question was: What 
components are needed in a State system to support low-performing 
schools & districts? We conducted interviews with superintendents, 
principals, State DOE & policymakers and talked with leaders in other 
States and internationally as well as performing a literature & web 
review. From this research, we proposed recommendations for 
improvements to the current system and carried out a cost analysis of 
the impact of the proposed changes.
    We found that while 376 schools had been identified for performance 
deficits in school year 2003-2004, only 16 schools had been reviewed by 
the State. One hundred thirty-two districts had been identified, but 
only seventeen were reviewed. The State simply does not have the 
resources to review the number of schools identified for improvement 
and, to compound the problem, the number of these schools continues to 
grow. In 2006, 629 schools were identified as compared with 420 in 2005 
and 376 in 2004.
    When we asked superintendents what services they would need to add, 
expand or improve to get all students to proficiency, almost all 
superintendents interviewed cited professional development and 
curriculum support as areas of need. Support in data and assessment and 
increased time on learning were close seconds.
    We asked superintendents to report on the degree to which they 
found the budget crisis to be an obstacle to improvement. Seventy-nine 
percent of those interviewed cited the budget crisis as a problem.
    This case study also analyzed Massachusetts' total education budget 
versus the DOE budget and found that the DOE's percent of the total 
budget had decreased from .44 percent of the total in 1994 to .24 
percent of the total in 2004. Instead of receiving more resources 
commensurate with an increased role, the DOE has received a diminished 
proportion of resources from the State and a reduction in its capacity 
to meet a growing set of demands.
    Next, we looked at the size of the staff at the DOE and found that 
in 1980, the DOE had 990 employees, and in 2005 the DOE employed 510 
staff. Although the DOE's responsibilities had arguably doubled over 
that time period, the staffing had been reduced by nearly half. As a 
comparison, the Boston Public Schools central office employs 548 
administrators to oversee a district of approximately 60,000 students 
or 6.5 percent of the State's student enrollment.
    Finally, our case study examined the median annual salary of DOE 
employees as compared with public school teachers and administrators 
and found that the median salary for DOE specialists, coordinators, and 
managers was nearly $10,000/year below the median salary of a teacher 
and nearly $25,000/year below the median salary of principals.
    Based on our research and interviews with those in the field, we 
made a set of recommendations for building the State's capacity to 
support districts and schools in need of improvement. We recommended 
that the State provide curriculum & professional development by 
increasing its leadership and guidance in helping districts select 
curricular programs and professional development providers. We also 
recommended that the State increase its role in the area of data and 
assessment, providing districts with data and help in analyzing it. 
Leadership and strategic planning was another critical area in which we 
recommended that State increase its role--especially in terms of 
building administrative capacity and developing a pipeline of new 
leaders. Last, we recommended that the State seriously consider funding 
additional learning time for both teachers and students as an added 
resource for schools and districts seeking to improve.
    We concluded our report with recommendations for the State 
department of education's infrastructure. We suggested refining and 
improving the State's intervention process to make it more of a service 
for schools and districts. This also implies that the DOE adopt a 
``service-mentality'' where they listen and respond to the needs of 
schools and districts. We advised that the SEA focus on improving the 
quality of staffing by addressing the inequities of the pay scale and 
reducing bureaucratic hurdles in the hiring process. We also encouraged 
the DOE to foster more capacity-building efforts at the regional level 
by exploring partnerships with educational collaboratives and local 
education funds. Finally, we recommended that the department create a 
research mechanism to support State-level decisionmaking.
       key components of an effective statewide system of support
    Through our work in Massachusetts and a more recent national survey 
of State initiatives, we have developed a list of key components for 
statewide systems of support. These components provide a model for SEAs 
as they seek to meet the diverse needs of schools and districts.
    It is important to note that before States develop key components 
of an effective system of support, they must develop a coherent 
strategy designed to achieve critical and well-defined goals. SEAs must 
have in place a ``theory of action''--a collective belief about causal 
relationships between action and desired outcomes--to guide their work 
and ensure that it is focused and directly tied to the needs of schools 
(Public Education Leadership Project at Harvard University).
    As mandated in the NCLB legislation, the first key component of any 
statewide system of support is planning and implementation. In this 
phase, the SEA works with schools and districts to help them identify 
root causes and develop and implement action steps to effectively 
address challenges. A critical aspect of this phase is differentiating 
the level of support provided to each school/district based on their 
individual needs rather than creating a ``one-size-fits-all'' approach 
to school improvement.
    Leadership support is another critical component and includes 
building instructional leadership that is focused on results, as well 
as developing ``professional learning communities'' among all school/
district staff, and addressing the supply of new leaders. Leadership 
support might take the form of leadership coaches, mentor principals or 
a program that creates a pipeline of new leaders.
    Schools and districts are also in need of better access to and use 
of data--especially at the school level--so that data can be used to 
inform instruction. SEAs must provide systems that produce timely and 
useable data and must support schools in the use of that data to drive 
decisions and instructional strategies. This might include developing 
formative and benchmark assessments tied to State standards, providing 
professional development in classroom-based analysis of student data 
for instructional improvement or developing State assessments based on 
growth.
    Curriculum and instructional support are other critical areas of 
support. This type of support includes providing guidance in curriculum 
selection and content area professional development. States must also 
play a role in providing support for improving teachers' practice and 
pedagogy so that they receive support in both the content and the 
skills necessary to teach that content well.
    A related component is professional development, which includes 
supporting the development of communities of practice and ongoing, 
embedded professional development focused on improving instruction and 
increasing student achievement. The State might provide guidance on 
professional development providers as well as providing incentives for 
schools to make time for regular professional development for teachers.
    SEAs also need to provide assistance to districts by focusing on 
building district-level capacity. The State can assist in building 
district leadership to support school- and classroom-level improvement 
through professional development focused on student achievement for 
superintendents and other central office leaders, assistance in 
developing district improvement plans based on meeting diverse needs of 
individual schools, and conducting central office reviews.
                               conclusion
    It is crucial that State departments of education receive the 
support needed to assist schools in need of improvement. Without urgent 
attention to limited capacity issues at the State level, the promise of 
education reform that is at the heart of No Child Left Behind is in 
jeopardy. Standards-based accountability asks educators to reach higher 
than they have ever reached to bring not just some, but ALL students to 
proficiency. With these increased expectations comes an obligation to 
provide the resources and support to realize these new goals. As States 
are being asked to do more with less, the future of our Nation's youth 
hangs in the balance. We know that these laudable goals are within 
reach, now we must provide the capacity building assistance to make 
them reality.

    The Chairman. Well, thank you very much. Marvelous panel, 
covering a wide variety of different subject matters but I 
think we are all impressed about the quality of the people that 
have testified. We can see at least why you're such leaders in 
your community and why you're such successes.
    Well, we've got a participation here but we're limited to 5 
minutes so people get a chance to ask just a couple of 
questions.
    Paul, to help and assist the States, we had 4 percent 
allocation of title I. If the title I was going to expand, 22 
States but the title I has gone down so the States aren't 
getting that resource. And then there was the authorization for 
school improvement, which has never been funded and the 
continuing resolution now is $125 million on the school 
improvement.
    Maybe at some time, you might have some recommendations, 
specific recommendations of how we might--whether those are 
satisfactory ways of trying to help the States do the kinds of 
things that you've outlined here and that have been mentioned 
here. If those aren't the ways to do it, if you have other 
suggestions, just very, very quickly.
    Mr. Reville. Yes, I'd be happy to work on the specifics of 
that. I think the State education agencies would welcome any 
increased commitment of resources and support. I was talking 
with Gene Willhoyt, the Executive Director of the Chief's Day 
School Officers, Mike's colleagues, this morning and the Chiefs 
nationally, are very concerned about this and very eager to 
work with you on outlining an approach to providing the kind of 
additional support in key areas that I've talked about.
    The Chairman. Mr. Coleman, you've mentioned about your 
Saturdays, 25 Saturdays. You talk about your extended day. 
We've done that in Massachusetts. We've had really important 
success in Richmond programs where that extra hour or hour and 
a half--we've got a number of different schools, graduation 
rates, promotion rates and all the rest. What has been the 
reaction? Give us the reaction to the Saturdays, the extended 
times. Give us the reaction from the students, from the 
teachers and from the parents and from the community, just 
quickly, if you would, please. And the results, too, quickly.
    Mr. Coleman. The reactions have been interesting. One of 
the things we've taught our children and I talked earlier about 
the social structure, the academic and the moral and the belief 
system. We've taught our children to believe how important 
education is so when we talk about coming to Saturday School 
and they come from 9 a.m. to 12 p.m., our children typically 
wear uniforms but they're allowed to wear their regular clothes 
on Saturdays and we've taught them that it's important to 
extend their learning and we've tried to motivate them to get 
excited about coming to Saturday School, just so they can 
master the work. So self integrity, looking at their future, 
being visionaries--Saturday School supports that kind of a 
theme.
    From our parents, certainly our parents have been very 
supportive of Saturday School because it takes the kids out of 
the house.
    [Laughter.]
    We have busses that--I mean, there is a cost factor. We 
have the school busses that pick the children up to come to 
Saturday School but when we have an environment where children 
enjoy learning and they're taught that the culture of the 
building is positive, we find--what I've found over the years, 
particularly when I was principal of the school, when I was 
handing the letters to children that were going to Saturday 
School, the ones that were not invited were sometimes insulted. 
So that's the kind of culture that we've tried to establish 
with the extended learning.
    One of our challenges has been when our kids leave 8th 
grade and go into high school, they go to one of our local high 
schools and they are not--the expectations have changed and we 
don't have the extended learning. We don't have the extended--
the longer day. We don't have the Saturday School. We don't 
have the intersessions. We've seen significant changes in 
student performance.
    Student performance with our children in grades 
kindergarten through 8th grade have been significantly higher 
than the children in the rest of our school district because of 
the additional extended learning time. Ninety-six percent of 
our kids, as I mentioned earlier, are on free or reduced lunch. 
Ninety-seven percent of them are African-American children and 
we've out-performed the other kids in the district. We've 
closed the achievement gap because of the amount of time on 
task.
    Now, more time, if we're not using strong strategies, more 
time and money really doesn't help us. But using money 
effectively and using our time and resources based on the data, 
it has had a significant impact on our test scores. We've made 
adequate yearly progress, of course, every year and we've been 
fully accredited. So it makes a significant difference for our 
children and our parents.
    The Chairman. Fifteen seconds, Paul and then I'll yield to 
the Senator.
    Mr. Reville. Mr. Chairman, once when I was a member of the 
State Board of Education in Massachusetts, I had the 
opportunity to chair the Massachusetts Commission on Time and 
Learning and it seems to me, a central business of education 
reform now and the reauthorization is to reconsider this time 
paradigm in education. The notion that we can get all students 
to proficiency when they begin at such very different levels, 
by providing everybody the same amount of time and the same 
educational treatment is an illusion we can't afford any 
longer. So I think one of the last frontiers of education 
reform has got to be breaking the time barrier and giving 
children the amount of time and the kind of instruction they 
need to get to proficiency.
    The Chairman. Excellent.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman and I really want to 
thank all of you for participating in this and I hope that you 
will continue to participate in our process. We always 
encourage Senators to submit written questions. Sometimes those 
are more detailed than they want to ask in a public situation. 
You've been a wealth of information and I have a whole bunch of 
questions here that I'd like to get a little bit more 
specificity from you on them so that I can understand it better 
as we go through this process.
    It's easy to see why the schools that you work with are 
successful. I appreciate the ideas and your willingness to 
share them so that we can make sure that all the kids in the 
country have the opportunity to succeed. It's very exciting to 
listen to this.
    Ms. Mahaley-Johnson, the turnaround schools. I've got a 
whole bunch of questions, but I did note that you're paying 25 
percent more to teachers who are national board-certified and 
have a record of excellence. That's outstanding. We're trying 
to get more nationally board-certified teachers in Wyoming and 
there is kind of a competition across the country to see who 
can get the highest percentage of those teachers. But a 25 
percent bonus for teachers teaching in the schools that need it 
the most equals a bonus of $10,000. I'm disappointed that the 
Omnibus appropriations bill that we're going to be dealing with 
in a few days, has eliminated funding for teacher incentive 
pay. So we'll have to see if we can do something to re-
institute that money.
    Ms. Turner, I'm going to have to get more information from 
you on the Carnegie Tutor Program on math that works on a 
laptop and has helped these kids. I'm sure there are a lot of 
programs out there that we don't even know about and this 
concept of having a laptop for each of the kids over a period 
of 4 years, that has to put quite a stress on resources.
    Ms. Turner. Yes, it does, but we have a lot of community 
support. We have businesses supporting us. We have the City 
Council. They finally bought into it after the long talk of our 
superintendent. They had background support that it was really 
good work but it really engages the students and it helps them 
do it at their own pace. Like they were saying, everybody 
doesn't learn at the same rate. But they can use it on their 
own time, use it in the classroom, use it with other teachers. 
So it's really been good. It's through Carnegie Learning, is 
the one we use. But as you mentioned, there are others out 
there that are available.
    Senator Enzi. I'll have to get some more information on 
that, too and I hadn't realized until Ms. Kimberly Johnson 
mentioned that teachers, as part of the curriculums, are going 
through the school year and don't get their students' data 
analysis. They may now but I can tell from all of your 
testimony how important being able to analyze what the kids are 
doing is for improving instruction.
    Mr. Coleman, I'll give you a specific question, here. You 
were mentioning this increased school day from 8:15 a.m. to 
4:30 p.m. and 9 a.m. to 12 p.m. on Saturdays. I assume that the 
compensation covers the extra days and extra hours?
    Mr. Coleman. Yes, it does. We pay teachers about $4,000 
more per year for the extended day. They get paid by the hour 
for Saturday School. During these intersessions that I 
mentioned in this year-round or balanced calendar, they are 
also paid by the hour to come in and teach. So we have to have 
committed teachers that understand what the mission is.
    Senator Enzi. How does that set with the rest of the 
district?
    Mr. Coleman. Well, there was one other school in our 
district that had a balanced calendar also and many places, we 
find that--many people have come into public education because 
people think we have our summers off and we go home at 3 
o'clock and that's just not the case. What we're finding is 
that teachers need to be compensated for the additional hours 
because in many cases, they're in the school. What we do is 
provide the opportunities for the teachers and the children to 
be at the school at the same time so that they can get the 
extended day. For our teachers that come on Saturday, sometimes 
we have teachers from our building. Other times, we have 
teachers from neighboring schools or school districts that come 
and work on Saturdays as well.
    I think that for the most part, teachers understand that 
again, children do not process at the same speeds and because 
of the clientele that we have coming to our school, we 
recognize that we need the additional time and so it's just 
part of our mission and we've gained agreement in capacity 
within those adults in our district that it's something that is 
necessary and something that our district has--the new school 
district has supported. It's part of a partnership that was 
established when An Achievable Dream was established.
    Senator Enzi. Thank you very much. As I said, I've got just 
a bunch of questions for all of you. I come from a mining 
community so I'm going to try and mine this wealth of knowledge 
that you have and make use of it. We have several other people 
that are here that would like to ask questions, so I'll yield.
    The Chairman. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman and 
Senator Enzi and thank you for a very informative presentation 
by the panelists.
    Ms. Johnson, one of the--we're working on the No Child Left 
Behind Act but it tends to intersect with other provisions and 
other acts and one was the Higher Education Act. I understand 
Chicago has an Urban Teaching Residency Program.
    Ms. Johnson. We do.
    Senator Reed. Which is, as I understand, a mentoring model 
based upon the, sort of roughly, internships like they do for 
medical professionals. Can you comment upon that? How 
successful is it? How much has it contributed to enhanced 
professional development?
    Ms. Johnson. Yes. Well, it's been incredibly successful and 
I'm happy to see Senator Obama here and I notice--he knows a 
lot about the program. So it's been around for several years, 
at least 5 and we have lots of data that shows that the 
individuals who have gone through that mentorship program, that 
training program, are making a difference. What is unique about 
it is that the teachers are specifically trained to go into 
challenged communities and unlike schools of education, the 
individuals who are participating are mid-career professionals 
who often come with other talents and skills and a level of 
maturity that you don't necessarily find from recent graduates. 
So we have lots of data, which I could share with you on the 
effectiveness of the program. But we do use it in our 
Turnaround Schools.
    Senator Reed. And you collaborate with postsecondary, 
higher education institutions?
    Ms. Johnson. Yes. So there is a partnership with National 
Lewis University. The way it works is that the individuals 
apply for this program. There are several hundred who apply 
every year and about 30 are accepted. They are given a $30,000 
stipend for participating in the program and the Academy of 
Urban School Leadership is partnered with National Lewis 
University so they also leave with a Masters Degree and 
Certification. One other aspect is that they get two 
experiences. They work in a school in one of our--I would say 
wealthier communities in Chicago. They spend half their time 
there and then they spend half their time in a more challenging 
neighborhood.
    Senator Reed. Well, thank you very much.
    Ms. Johnson. You're welcome.
    Senator Reed. Let me follow up with Ms. Johnson, the issue 
of professional development and Senator Enzi alluded to the 
national board certification issues--Kimberly Johnson. I've got 
my--I'm confusing myself, forgive me.
    Kimberly, how many teachers in your school do you have 
pursing the national board certification?
    Ms. Johnson. I currently have three.
    Senator Reed. Out of, I'm told, 115?
    Ms. Johnson. Total staff, professional staff, about 75.
    Senator Reed. Seventy-five. And how can we get more 
teachers to do this? Do you have any ideas or alternatively, 
why are those three teachers pursuing this credential?
    Ms. Johnson. To be very honest with you, with all of the 
data analysis and all of the standards and all of the 
expectations on making highly qualified status, teachers are 
overwhelmed. And there are a lot of pieces that go into 
teaching students on a daily basis whereas you no longer have a 
classroom of 30 students. You have a classroom of 30 students 
that fit into subgroups that then have special needs and other 
outside factors. So it's no longer the profession of teaching 
just 30 and as you said, going home at 3 o'clock. It's just--
teachers are overwhelmed. I would think that you would need to 
provide an incentive for compensation, Senator Enzi just 
mentioned. But they are doing the after-school programs, 
they're doing the Saturday School programs. They are working to 
capacity at this point.
    Senator Reed. So those three are just, for their own 
reasons, want to go on to----
    Ms. Johnson. Professional development, additional. They 
have Masters degrees and they don't want to go into 
administration.
    Senator Reed. Yes, very good. Just in general, can you 
comment on the environment of professional development in your 
school, Kimberly? It's so central to what I think we all want 
to do. That's the great lever, I think, in terms of making 
this--going from where we are with No Child Left Behind 
forward.
    Ms. Johnson. Definitely and I actually review data on a 
monthly basis, if not sooner. We receive reports on all 
benchmarks within curriculum so that before we get to State 
testing, we should know how a student is performing. We also 
use data analysis and all of the data analysis comes by way of 
professional development. There is a process that my staff 
developer teaches the content area teachers to look at their 
data because essentially, to some, it's just numbers on a page 
whereas to me, it's like opening the bible and reading from 
there and understanding why life is the way it is. So teachers 
do get that professional development and using the data but the 
data that they use has to be every day, all day and they have 
to be supported by a staff developer. We have a full time staff 
developer who is fully released to work with teachers and using 
data. That would be our primary focus through the lens of their 
particular content.
    Senator Reed. Thank you, Mr. Chairman.
    The Chairman. Thank you. Very interesting.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I really 
appreciate the comments from the panelists. When I first looked 
at where everyone was from, I was concerned that this was going 
to be a real urban perspective and coming from a largely rural 
State, perhaps I wouldn't be gaining much from it. But I have 
to tell you, I'm walking away with great pearls of wisdom that 
I'm going to take north with me.
    I'm very curious about the Urban Teacher Residency Program. 
We've got challenges in the State where we have teachers who 
are fully prepared to come and teach in a normal classroom and 
they get out to a very remote village, different issues facing 
them, not the least of which are their teaching challenges. But 
perhaps if we could have some kind of an urban residency 
teacher program that some from the more rural States could 
collaborate on, that might give us some ideas.
    I want to ask you and anybody may speak up on this. One of 
the challenges that we have faced in Alaska with our teacher 
retention issue is we'll get bright young energetic individuals 
ready to come and then within their first 2 years, they decide, 
``I'm not being paid enough. This isn't what I thought it was 
going to be.'' And it really has affected our ability to retain 
good teachers in the State. We have recently focused on a 
mentoring program that allows for a pairing between a new 
teacher and a sucessful, experienced teacher at least through 
those first 3 years when teachers are making that decision 
whether or not to stay within the teaching profession as a 
career.
    Can you speak to me or give me some ideas as to what you 
are doing with specific mentoring within your schools that you 
have seen to be productive or useful that you can share?
    Dr. Brandon.
    Ms. Brandon. Yes. We have developed a partnership with our 
business community, for one, that provides incentives for our 
new teachers to remain in----
    Senator Murkowski. Financial incentives?
    Ms. Brandon. Not financial but by way of low-interest loans 
on cars, mortgage, some of the apartment owners have provided 
reduced rental rates. We have a business partner who provides a 
social atmosphere for our new teachers so that they can get to 
know each other and bond and develop a support system because a 
lot of our teachers come from outside of Richmond, outside of 
the State.
    With the shortages in mathematics, science and special 
education, we've had to recruit from as far away as Jamaica. We 
have a teacher who came to us from France. So we've expanded 
our recruitment efforts. We also have an external and internal 
mentoring program. We use retired teachers from the external 
side. We use teachers within that same school from the internal 
side to walk with the teachers, to support them. There are a 
lot of challenges within the classroom and someone who is right 
out of college, it's a matter of time management, balancing 
what's important and then learning everything there is about 
teaching. It's not like it was when I started 5 years ago. I 
know I'm telling a tale--29 years ago. It wasn't like that. We 
came in. We had the ability to teach a lot of things that we 
felt that we were comfortable with. Now we're asking teachers 
to expand beyond their level of comfort. Our elementary school 
teachers are not very comfortable teaching math and science so 
we have to engage them through professional development 
activities and provide the content for those teachers and help 
walk them through it, hold their hands, give them as much 
support within a classroom as we possibly can.
    Senator Murkowski. Anybody else? Mr. Flanagan.
    Mr. Flanagan. Thank you, Senator. I want to bring into the 
conversation about this, the university system, at least in 
Michigan. We have 32 universities and college that produce 
teachers and as a new State superintendent, a year ago, I asked 
the deans to meet and we decided that--we have some leverage 
with them on renewing their opportunity to do teacher education 
and what we're working toward with them right now, to be blunt, 
is they won't be renewed if they don't help us with this 
mentoring issue. Parents pay 4 or 5 years tuition, sometimes 8 
or 9 years tuition. My daughter is a first year high school 
teacher right now, got out of what I think by even Ed Week and 
others acclaim, that Michigan State is pretty much the top 
teacher ed institution in the country. She's struggling. And we 
still have a 50 percent--in effect, drop out rate, I think, in 
our State and I bet most States are like that, that in 5 years, 
most--about half the teachers leave. And she's been to this 
excellent school, which it is, but without the follow up 
mentoring that I think the universities are in a position to 
help us with, we're going to have this same failure rate.
    Senator Murkowski. So you haven't put into place yet, then, 
where the university is assisting with the mentoring. You're 
doing that currently, is that correct?
    Mr. Flanagan. We're doing that currently but with the 
result, they know that will be in place if they don't help us 
make gains in that respect, we wouldn't renew them as teacher 
ed institutions. And they're stepping up. I mean, I'm working 
with a small panel of the deans right now but there is 
tremendous--the reason I bring this up isn't so much a carrot--
it sounds more like the stick but the carrot is that 
universities have tremendous resources in terms of people. I 
mean, people that really get this and a lot of them have fine 
mentor programs. But when you get the districts trying to 
support their own with all the other work that we all require--
State agencies do, certainly No Child--appropriate work. It's 
just a natural place that I would invite the committee to think 
about in terms of trying to solve that problem, would be our 
excellent universities.
    Senator Murkowski. Ms. Turner, are you a mentor?
    Ms. Turner. Yes.
    Senator Murkowski. You are mentoring?
    Ms. Turner. Yes, I'm a mentor for a math teacher. We 
usually keep it in the department but it doesn't have to be and 
I've helped the new teachers with the I Can Do It Program, 
which is good for the first- to 5-year teacher. They go through 
the program and they get to work with others. They get programs 
that we follow and it's really been helpful. I think a lot of 
the colleges need to improve on what they prepare the teachers 
for because they're not really ready for the classroom when 
they come out of college. So we need to work at that level.
    The Chairman. If I could, we're told that we're going to 
vote--probably, we were going to be at noon time but I think 
it's going to be backed up a little bit. So we've got three 
more Senators, if it's all right? Then we'll come back, if 
that's okay?
    Senator Murkowski. I appreciate it. I know that Dr. Barber 
had wanted to just speak up.
    The Chairman. Oh, well, please.
    Ms. Barber. And probably causes what I do in my current 
job--I'm a principal coach, which is a mentor. I coach 
principals. In the State of Alabama, Reading Initiative and 
with the Reading First grant, we have infused all of our 
schools with onsite reading coaches. And these reading coaches 
provide direct professional development to teachers and they 
target those teachers who are new and who are at need. They 
provide explicit--they model. They do the modeling for the 
teachers and then they do the side-by-side with the teachers. 
So those teachers are more comfortable because they have 
somebody there, right there and they are working in the 
environment in which we are expected to perform. It's not as 
though they're going out somewhere. It's job embedded. And that 
has proved to be a positive for us in the State of Alabama and 
we've taken it to another level. They have hired 25 principal 
coaches and we work with those principals on connecting the 
instructional piece to the leadership piece. And working with 
them on implementing those strategies--that's going to help 
them move those teachers. When teachers are--and we don't do 
the--not a lot of the tangible rewards but we feel that we take 
them back to their original reason for going into education, to 
make a difference in the lives of students. So when we're there 
with them and they see the results--even before they change the 
way--before they change their belief system. If we can get them 
to change their behaviors and give it a chance that this 
strategy might work. Once they change their behaviors and then 
something works, then they start changing their beliefs. OK. 
This is gratifying. I can do this. I can move these kids to 
where they need to be. So throughout the State, we do--we have 
a coaching process in place on all levels.
    The Chairman. Thank you.
    Senator Obama.
    Senator Obama. Thank you, Mr. Chairman. I want to thank 
everybody here but I have to make a special commendation to Ms. 
Mahaley-Johnson and the great work that is being done in 
Chicago. I'm very familiar with some of the work that has been 
done, Mr. Chairman, at the Teachers Academies in Chicago in 
matching mentors to new teachers in the classroom and it's 
working terrifically well.
    I'll be very brief. It strikes me that part of the struggle 
that Mr. Flanagan was referring to with his daughter--my sister 
is a teacher, so she went through the same thing--is needing 
that mentor. There are some other elements as well. Making sure 
that teachers have some flexibility in the classroom. Providing 
opportunities for professional development that are built into 
the school day. An ongoing complaint and concern that I'm 
hearing is the issue of assessment and making sure that even as 
teachers are held to a high standard, that we have good tools 
to define what teachers are performing well and which ones need 
more help.
    The interesting thing is I think there is pretty good 
anecdotal information. If you poll teachers inside a school, 
you'd probably get a pretty good sense of those who folks 
consider to be good teachers and those that need some 
assistance. But I think a lot of teachers tend to be skeptical 
as to whether those are fully reflected in test scores alone, 
so I'd first be interested in anybody's comments about either 
how we can more effectively structure the school days and 
curriculum to help retain and develop excellent teachers and 
second, have any of you been doing work on the assessment side 
so that you're able to identify the teachers that are doing 
really well and support them and identify those teachers that 
are having problems that may not show up on test scores but 
nevertheless, would determine how you might intervene or 
provide them more help.
    Ms. Johnson. Senator Obama.
    Senator Obama. Go ahead.
    Ms. Johnson. If I can speak. Montgomery County, Maryland is 
the forerunner, I think, in staff development, in having it 
embedded within the school day. There are several levels that a 
teacher can participate. That would be the original staff 
development that is school-based. They also receive a 
consulting teacher when they are new to the classroom that 
comes out and observes them. There is also the Peer Assistance 
and Review process, whereas a teacher who is not doing well, 
they go before a panel and the principal presents the data, 
based on their instructional practices and the teacher is then 
given a year to improve with additional support. So it's a 
process that is supported by their colleagues and by 
administrators in the county.
    As to teachers coming out of college, one of my teachers 
made a comment that they came out of college wanting to be a 
teacher and now they've turned into a statistician. So it's a 
very huge disconnect with, I think, what they're taught and 
what they're actually asked to do and I think that's where you 
get the apathy or you get the decline in teachers wanting to 
return to the profession. So I think it's a combination of 
making sure that teachers are well prepared to come out and hit 
the ground running in the classroom with all of the standards 
that we are now being held to and then also, the support that 
is embedded in the classroom and outside, county level and also 
district level or State level.
    Mr. Reville. There were two parts of your question, Senator 
that on the first part, we have a 53 percent attrition rate in 
Boston in 3 years. That is 53 percent of people leaving the 
profession. So we have to take that as a statement that we 
don't have a very attractive profession that we're offering 
people these days and people with choices are moving elsewhere. 
And I think that mentoring, while necessary to creating a 
climate in the profession that will attract and hold people is 
not sufficient, as you said in your opening comments and there 
are a whole bunch of factors in terms of creating reflective 
community of practice at the school site, rewarding excellence 
in terms of performance, giving people the opportunity to 
advance without leaving the field, giving teachers some other 
prerogatives that we associate with other professions, like 
their own computers and telephones and offices and especially a 
schedule that allows them not to be in front of children every 
minute of their day but allows them the time to work with 
another to strategize on how to be more effective at the work 
they're doing, to do the sort of data analysis that we've heard 
about here today and for the most part, while American school 
days and years are typically shorter than those in most other 
countries, American teachers are typically in front of children 
for more time than other teachers are anywhere else and we've 
got to somehow, again it goes back to this time issue that I 
raised earlier--create an amount of time within the school day 
that allows teachers to be true professionals and to work 
together to strategize to make their work more effective.
    Senator Obama. I don't know. I may have run out of time.
    Mr. Flanagan. Maybe just one quick reaction.
    The Chairman. The comments are so good--please.
    Mr. Flanagan. To take the fear factor out of data. Right 
now, I think if teachers are honest, they are concerned that 
part of the assessment that is required under No Child Left 
Behind is going to be used against them at some point. If you 
think about an athlete, you really think about knowing some of 
their weaknesses so that you can identify them and work on 
them. We think about that the same way with teachers, that we 
have this tremendous data stream now so you may know that over 
a period of 5 years, a 5th grade teacher is really struggling 
in math because of the results of the students over 5 years. 
That shouldn't be an indictment of that teacher. That should be 
a target and a diagnosis for professional development, just 
like you would with someone like me who used to strike out a 
lot in baseball.
    Mr. Coleman. If I could respond--I'll be very brief. What 
we are finding in our school--teachers are willing to learn in 
a nonthreatening environment so when we have 5th grade teachers 
that collaborate together, if one is not doing well and then 
one is doing very well and they start sharing their data, 
again, in a non-threatening environment, we are finding that 
the master teachers are right there within our midst. We don't 
have to pay for specialists or anyone to come in and do the 
work for us or have an administrator sometimes involved. A 
couple of years ago the 4th grade team wasn't doing well but we 
had one teacher who had students that were in the 85th 
percentile. The rest of the teachers had kids that were in the 
60th percentile and having them sit down and talk to each other 
and share their teaching strategies in the classroom because 
they had the same clientele made a significant difference.
    Ms. Barber. May I add to that, briefly? You mentioned 
taking the fear factor out. If we are proud of our profession, 
then we shouldn't be fearful. We have to--the tone has to be 
that we are here to learn from each other and we need to work 
collectively to make a difference in the lives of boys and 
girls. We have to make a difference in leaders in the lives of 
our teachers. We can't fire every teacher that comes through 
our door. So we have to set a tone that says that we are going 
to embrace what you bring to the table. We're going to look at 
the data as it relates to you, as it relates to your students 
and we're going to make--we're going to affirm those things 
that are working but we're also going to make a plan of action 
for those things that are not working. We have to have the 
culture so that people are not afraid to be--to look at the 
data. And not be afraid about what No Child Left Behind says or 
any of the other accountability because it's easier to train 
the teachers and not have such turnover and when teachers 
understand that we're here for them, then we're not going to 
have that factor because the day is going to be structured so 
that you can have more time. Nobody ever gave me a schedule and 
said you have to have this, this and this. I had to set up what 
was going to work for teachers. Thirty minutes planning is not 
adequate. They needed more time because there was a wider gap 
that had to be overcome. So we have to take that fear factor 
out and make education what it should be. It should be 
something that we're proud to be a part of.
    The Chairman. We'll come back to this in a minute but 
unless Senator Roberts and Senator Allard--I know they'll have 
some questions and then depending when we're going to have this 
vote, we'll have a chance to come back to it.
    Senator Roberts. Mr. Chairman, thank you very much. Thank 
you--thank you for your dedication, thank you for your 
expertise. This has been an outstanding hearing. I have three 
questions and then I have some comments, if I can get them in.
    No. 1, now this is for Mr. Flanagan.
    In your testimony, you talked about the need for resources 
and obviously we have to have more resources. We promised years 
ago to fund IDEA at 40 percent. It has become one of the 
greatest unfunded mandates of all time. And Senator Harkin and 
I have introduced legislation, along with many, to put the 
current funding level, which is about 16 to 16.5 percent up to 
40 percent. If IDEA was fully funded at the level promised by 
Congress, wouldn't that help Michigan schools to better fund No 
Child Left Behind and your answer is yes.
    [Laughter.]
    Mr. Flanagan. You know, my answer is yes, sir. But let me 
tell you----
    Senator Roberts. I have an open question. Growth models 
have been discussed by educators in my State as a better way to 
assess students, especially those with disabilities and English 
language learners. In other words, if you go from A to B to C, 
tremendous growth, why shouldn't that be considered on some 
kind of a percentage basis? I know No Child Left Behind may be 
D and E but if that student who came from zero or minus, got 
that far, why can't that be taken into account?
    Mr. Flanagan. Can I just mention on my yes answer, which I 
do agree with. I was a regional superintendent and Detroit was 
in my area at that time. We had 35,000 special needs kids. Half 
of them were learning disabled. If we had some of the resources 
that were available under IDEA--but also----
    Senator Roberts. Promised.
    Mr. Flanagan. Promised and if we also had what I would say 
are some stronger preschool programs, 80 percent of those 
learning disabled kids would never have been labeled learning 
disabled. We would have been in a position where these kids 
would have moved in a very different fashion through their 
education. So I mean, I would agree with you on the IDEA.
    Mr. Reville. Can I say something to the growth thing?
    Senator Roberts. Certainly.
    Mr. Reville. I mean, the name of the game should be about 
improvement. If we have an accountability system, which we do 
in many States, that is basically looking at this year's 4th 
graders against last year's 4th graders and measuring progress 
in that way, we're really measuring more of the difference 
between the two cohorts than we are as to whether or not 
anybody has learned anything. We ought to rather be looking at 
how this year's 4th graders are doing next year as 5th graders 
so we can see how much growth there has been during that 
interval.
    Senator Roberts. So you're supportive of the growth model?
    Mr. Reville. Absolutely.
    Senator Roberts. Eight percent, when I first ran for 
Congress, were non-Caucasian and today it is 53 percent. The 
same thing is happening all over southern Kansas. The same 
thing happening a lot in our southern States. Why can't, if 
we're going to reach a proficient reading level after 1 year of 
instruction, why can't we extend--why can't we expand that to 2 
years? That would really be beneficial because that--if you 
can't read, you're not going to get reading in math and science 
scores and it takes longer than 1 year and we have a lot of 
drop outs among those students. So why can't we extend that 
from 1 year to 2 years?
    Mr. Flanagan. Our written testimony asks for 2 years. I 
really agree with that.
    Senator Roberts. I thank you. Mr. Coleman.
    The Chairman. Could the Senator just yield on that?
    Senator Roberts. Yes, sir.
    The Chairman. Generally speaking, I think in Massachusetts, 
we're 1 year, aren't we, Paul? What are we--a lot of States 
have passed initiatives or rules or regulations to set times. I 
don't know precisely but I know----
    Senator Roberts. It's not realistic.
    Mr. Flanagan. But it's not realistic.
    The Chairman. I know but that's the point I want to make, 
is that it does exist in many places. I think Senator Roberts 
point is absolutely right. I want to support it. I just was 
interested in the fact that in many communities, they have 
legislated that, have they not?
    Mr. Reville. That's right. It's a collective exercise in 
wishful thinking.
    Senator Roberts. I'm always glad to hear from the Chairman 
when he agrees with me.
    [Laughter.]
    Mr. Coleman, An Achievable Dream Academy. 8:15 to 4:30, you 
get these kids in and pardon me, young people and then on 
Saturday morning and you're doing amazing work. What do you do? 
You have busses.
    Mr. Coleman. Yes.
    Senator Roberts. Do you have a post-school kind of program 
here?
    We do, in Kansas City, Kansas in one school, where an 
extension service, of all things, out of agriculture pays for 
it. Amazing. And we have quite a program. And it's fun. And it 
keeps the kids--or the latchkey kids who may not even have a 
parent at home. And it's in an area, if they go from the school 
to home, they're in trouble. So do you have that capability as 
well?
    Mr. Coleman. Please repeat that question, Senator.
    Senator Roberts. OK. You're teaching people from 8:15 to 
4:30.
    Mr. Coleman. That's correct.
    Senator Roberts. What do you do after 4:30?
    Mr. Coleman. After 4:30, we send them home on the bus.
    Senator Roberts. On the bus. You send them home.
    Mr. Coleman. Yes.
    Senator Roberts. You do not have a program, perhaps if 
there is a working mother who is not home?
    Mr. Coleman. No we don't. They are sent on the bus. 
Actually, we dismiss at 4:30. By 4:15, the buses are taking all 
the kids home. So it's not designed to be an after-school 
program. We just extend the curriculum.
    Senator Roberts. All right. I just want to have one other 
comment and I'm over time and I apologize. If you're going to 
get good teachers, you've got to pay them. And you've got to 
open up the back door. For people who want to teach without 
having to go through Ed Psych I, Ed Psych II, Standard 
Deviation. Basically, it's a labor of love. I know a teacher 
who was in the service who had a newspaper out in Arizona. He 
was asked to join the faculty because one of the teachers was 
absent. He taught speech, English, journalism, took over the 
newspaper, the yearbook, American History, was an assistant 
coach and a referee. And he also had a newspaper to run. That 
was me. For thirty-eight hundred bucks. I did it for 3 years. 
Couldn't afford it. But at any rate, we have got to get teacher 
salaries to a--I don't know what your daughter makes, sir, but 
it's not enough.
    Mr. Flanagan. Right.
    Senator Roberts. And so I don't know how we do that. That's 
been something that's bugging me for a long time because 
teachers leave, as you say, after 5 years. Got to open up that 
back door. If a businessman--if you're a military person, even 
a Senator or whatever, I'm qualified to give a lecture at the 
University of Kansas. But I can't teach in the secondary system 
because I'm not qualified, even with all the years I've had of 
public service because you've got to take X, Y or Z, even if I 
wanted to. I guess I could become a guest lecturer or something 
like that. That's not right. I'm done.
    [Laughter.]
    The Chairman. Senator Allard.
    Senator Allard. How much time do we have?
    The Chairman. You've got--it just started. So we'll stay 
here with you, 5, 8 minutes.
    Senator Allard. OK, very good. And I don't see a time 
clock. I'm new here but I just----
    The Chairman. No, we'll----
    Senator Allard. All right, very good.
    The Chairman. We'll go together.
    Senator Allard. Ms. Turner, I was fascinated with your 
comments about the computer and the role that it plays in 
education. There is also plenty of opportunity for abuse with 
the Internet. I assume it has access to the Internet.
    Ms. Turner. Yes, it does.
    Senator Allard. So how do you control potential abuse with 
the computer within your system?
    Ms. Turner. There are a lot of filters on it. There are a 
lot of blocks put on by the technology specialists so students 
can't access certain sites, so they can do that.
    Senator Allard. Now, if that's anything like my experience 
with computers in my office, you need a lot of support. They 
pick up viruses, they break down, they become dysfunctional one 
way or another. Does that require quite a bit of extra support 
within the system, to manage those computers from a maintenance 
standpoint?
    Ms. Turner. Right. There is a lot of maintenance to it. 
It's a lot of upkeep. We have to keep the system going. There 
are so many times during the classroom and you want to use the 
Internet and the Internet is down. So you have to have a backup 
plan. So yes, there are problems with it. But it's also the 
move into the 21st century, like you said, in your office--
we're trying to do better, faster things and that breaks down, 
too. So we just keep on top of it. We have a good staff that 
supports it.
    Senator Allard. So the way I gather your testimony, even 
though there are disadvantages that you have to learn to deal 
with in the system, I suppose when you first start out, you 
have more disadvantages but as you get the system working and 
you get the expertise in your staff, then those disadvantages 
work away.
    Ms. Turner. True. Actually in our case, it worked a little 
bit backwards. The first time, we didn't have quite as many 
problems because fewer students were using it. When we added 
the 10th grade on, the network got bigger so that added more 
problems. But then the teachers were more qualified. They had 
had the professional development so they had backup plans. They 
could work with it. So the good outweighs the bad.
    Senator Allard. Mr. Reville, if you look at the No Child 
Left Behind program now, what two aspects of that do you think 
are most effective and what two aspects would you say is least 
effective?
    Mr. Reville. Overall----
    Senator Allard. And the goal would be in terms of student 
achievement. Which two goals are most effective or two 
strategies are most effective? What two strategies would be 
least effective, in your mind?
    Mr. Reville. Well, I think one of the most effective things 
about No Child Left Behind has been the identification of 
subgroups and the insistence, as we've heard from a number of 
panel members, I'm looking at each and every student and 
holding schools accountable for the performance of each child. 
I think that's been critical and has drawn attention to a lot 
of underserved populations.
    I think also just the general imposition of an 
accountability system that requires progress in each and 
every--it requires every State to set high goals for students, 
to set high standards and to measure progress. Now at the same 
time, I will say one of the greatest weaknesses, I think, the 
way in which we measure that progress needs a lot of work. We 
need to move toward a growth model in the way in which we do 
this. Some of our assumptions that schools can improve on a 
linear trajectory by the same amount each year----
    Senator Allard. That was adequate, but my time is running 
out. On the growth model, if you say you expect them to advance 
a certain percentage each year, doesn't that even further have 
the potential of further disadvantaging the one who starts out 
at the very bottom? In other words, 5 percent of 5 is much less 
than 5 percent of 10 and as that extrapolates up grade to 
grade, you have the potential of further disadvantaging a 
student if you're not careful with that kind of model.
    Mr. Reville. Well, I think it is possible to have 
differential expectations depending upon the gap between 
yourself and proficiency and that suggests differential 
treatment in the schools. Again, it goes back to my earlier 
comment, which is, if we are giving the same amount of time and 
the same amount of instruction to everybody, irrespective of 
their distance from proficiency, then we're not likely to get 
everybody to the same standard at the same time. It would be a 
bit like running your hundred-yard dash. Some kids are starting 
at 300 yards from the finish line. Other kids are starting 25 
yards from the finish line and we're suggesting, well everybody 
ought to finish at roughly the same time. So I think there are 
ways in which we can say, if you are a long way from the 
standard of proficiency, you're going to need more time and 
more help because you've got to have a rate of progress that's 
higher than the rate of progress that we're expecting of other 
students who may be closer to the standard.
    The Chairman. Well, we want to thank all of you. Was there 
any other--we're going to run out of time. So I guess we won't 
have a chance to listen to other kinds of comments but this 
worked just the way that we had hoped. It was enormously 
informative to the members of the committee we want to thank 
you all. We want you to be part of this. We're not going to let 
you go after today and we're going to be working on this 
legislation and we're serious about it. We're going to keep the 
record open for questions but we're going to draw on you as we 
draft the legislation and a lot of good suggestions about how 
we can make some progress. Splendid recommendations, a lot of 
life experience and by people who have been dealing with this 
issue for the last 4 or 5 years. It can be invaluable, I think, 
for the children of the future to benefit from your experience. 
So we're very, very grateful to all of you.
    We'll stand in recess.
    [Whereupon, at 12:01 p.m., the hearing was adjourned.]

                                    

      

</pre></body></html>
